<html>
<title> - ESSA IMPLEMENTATION: EXPLORING STATE AND LOCAL REFORM EFFORTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                     ESSA IMPLEMENTATION: EXPLORING
                     STATE AND LOCAL REFORM EFFORTS

=======================================================================

                                6HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 18, 2017

                               __________

                           Serial No. 115-24

                               __________

  Printed for the use of the Committee on Education and the Workforce





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-227 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
           
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Elise Stefanik, New York             Mark Takano, California
Rick W. Allen, Georgia               Alma S. Adams, North Carolina
Jason Lewis, Minnesota               Mark DeSaulnier, California
Francis Rooney, Florida              Donald Norcross, New Jersey
Paul Mitchell, Michigan              Lisa Blunt Rochester, Delaware
Tom Garrett, Jr., Virginia           Raja Krishnamoorthi, Illinois
Lloyd K. Smucker, Pennsylvania       Carol Shea-Porter, New Hampshire
A. Drew Ferguson, IV, Georgia        Adriano Espaillat, New York
Ron Estes, Kansas
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                
























                            C O N T E N T S
                            

                              ----------                              
                                                                   Page

Hearing held on July 18, 2017....................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     2
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     3
        Prepared statement of....................................     6

Statement of Witnesses:
    Lovell, Mr. Phillip, Vice President of Policy Development and 
      Government Relations, Alliance for Excellent Education.....    23
        Prepared statement of....................................    25
    Nowicki, Ms. Jacqueline, Director, K12 Education, U.S. 
      Government Accountability Office...........................     8
        Prepared statement of....................................    10
    Pletnick, Ms. Gail, Superintendent, Dysart Unified School 
      District...................................................    18
        Prepared statement of....................................    20
    Wright, Ms. Carey, State Superintendent, Mississippi 
      Department of Education....................................    48
        Prepared statement of....................................    50

Additional Submissions:
    Mr. Lovell:
        School Interventions That Work: Targeted Support for Law-
          Performing Students....................................    90
    Mr. Scott:
        Prepared statement from The Advocacy Institute...........   108
        Prepared statement from The Council of Parent Attorneys 
          and Advocates, Inc. (COPAA)............................   109
        Prepared statement from LDF..............................   112
        Prepared statement from National Down Syndrome...........   115
































 
                     ESSA IMPLEMENTATION: EXPLORING
                    STATE AND LOCAL REFORM EFFORTS

                              ----------                              


                         Tuesday, July 18, 2017

                        House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:02 a.m., in Room 
2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the committee] presiding.
    Present: Representatives Foxx, Wilson of South Carolina, 
Walberg, Guthrie, Rokita, Barletta, Messer, Brat, Grothman, 
Stefanik, Allen, Lewis, Mitchell, Garrett, Smucker, Estes, 
Handel, Scott, Davis, Grijalva, Courtney, Fudge, Polis, Sablan, 
Bonamici, Takano, Adams, DeSaulnier, Norcross, Blunt Rochester, 
Krishnamoorthi, Shea-Porter, and Espaillat.
    Staff Present: Michael Comer, Press Secretary; Amy Raaf 
Jones, Director of Education and Human Resources Policy; Jonas 
Linde, Professional Staff Member; Nancy Locke, Chief Clerk; 
Kelley McNabb, Communications Director; Jake Middlebrooks, 
Legislative Assistant; James Mullen, Director of Information 
Technology; Krisann Pearce, General Counsel; Mandy Schaumburg, 
Education Deputy Director and Senior Counsel; Brad Thomas, 
Senior Education Policy Advisor; Michael Woeste, Press 
Secretary; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Austin Barbera, Minority Press Assistant; Jacque 
Chevalier, Minority Education Policy Director; Denise Forte, 
Minority Staff Director; Mishawn Freeman, Minority Staff 
Assistant; Doug Hodum, Minority Education Policy Fellow; 
Kimberly Knackstedt, Minority Disability Policy Advisor; 
Veronique Pluviose, Minority General Counsel; andAneesh Sahni, 
Minority Education Policy Fellow.
    Chairwoman Foxx. The Committee on Education and the 
Workforce will come to order. Good morning and welcome to 
today's full committee hearing. I thank our panel of witnesses 
and our committee members for joining today's discussion on the 
implementation of the Every Student Succeeds Act, ESSA.
    ESSA can be considered a milestone for K-12 policy because 
it was a monumental shift in the role of States and school 
districts would have in the future of education. ESSA sought to 
achieve two specific goals for K-12 education: autonomy and 
accountability. States and school districts were given new 
independence when creating a K-12 education program that works 
best for their own students, ending a Washington knows best 
approach to education.
    Additionally, ESSA specifically prohibited the federal 
government from influencing States' adoption of particular 
standards. It also repealed Federal mandates for teacher 
performance and protected a State's right to opt out of Federal 
education programs. Part of ESSA's goal for State and school 
district autonomy was to force Washington to remain at arm's 
length from States and school districts when it comes to 
education. And rest assured that this committee will be 
watching to ensure that Washington keeps its distance.
    While States and school districts were given more autonomy 
in ESSA, the law maintains provisions ensuring parents have 
transparent information about school performance and States and 
districts can hold schools accountable for delivering a high-
quality education to all students. ESSA also included 
unprecedented restrictions on the Department of Education's 
authority to take back the State and local flexibility 
guaranteed by the law.
    ESSA has stripped away powers of the Department of 
Education, such as the ability of the Secretary of Education to 
legislate through executive fiat or the ability of the 
Department's bureaucrats to substitute their judgment for 
States'. History made it clear that a top-down approach to K-12 
education did not serve students, parents, teachers, or the 
States well, and ESSA directly addressed the shortcomings.
    Given the monumental shift in education policy represented 
by ESSA, it is important that we hear how implementation is 
progressing. We know the law will not fully take effect into 
the coming school year and we will need time to assess its 
impact on schools and students. However, I look forward to 
hearing from today's witnesses about the progress State school 
districts and the Department of Education are making.
    This committee has been keeping a close eye on this 
implementation process. Last year we held four hearings on 
implementation of ESSA. Today we will continue our discussion 
on ESSA's implementation.
    ESSA was truly a change for K-12 education and I do believe 
this bipartisan law delivers the proper balance of autonomy and 
accountability to parents and taxpayers while ensuring a 
limited Federal role. This law has the ability to empower State 
and local leaders to change K-12 education for the better and 
that is why it is of utmost importance to this committee. I 
look forward to hearing from our witnesses and members during 
today's hearing.
    With that, I yield to Ranking Member Scott for his opening 
remarks.
    [The statement of Chairwoman Foxx follows:]

  Prepared Statement of Hon. Virginia Foxx, Chairwoman, Committee on 
                      Education and the Workforce

    Good morning, and welcome to today's full committee hearing. I'd 
like to thank our panel of witnesses and our committee members for 
joining today's discussion on the implementation of the Every Student 
Succeeds Act (ESSA).
    ESSA can be considered a milestone for K-12 policy because it was a 
monumental shift in the role states and school districts would have in 
the future of education.
    ESSA sought to achieve two specific goals for K-12 education: 
autonomy and accountability.
    States and school districts were given new independence when 
creating a K-12 education program that works best for their own 
students, ending a ``Washington knows best'' approach to education.
    Additionally, ESSA specifically prohibited the federal government 
from influencing states' adoption of particular standards. It also 
repealed federal mandates for teacher performance and protected a 
state's right to opt-out of federal education programs.
    Part of ESSA's goal for state and school district autonomy was to 
force Washington to remain at arm's length from states and school 
districts when it comes to education, and rest assured that this 
committee will be watching to ensure Washington keeps its distance.
    While states and school districts were given more autonomy in ESSA, 
the law maintains provisions ensuring parents have transparent 
information about school performance and states and districts can hold 
schools accountable for delivering a high-quality education to all 
students.
    ESSA also included unprecedented restrictions on the Department of 
Education's authority to take back the state and local flexibility 
guaranteed by the law.
    ESSA has stripped away powers of the Department of Education, such 
as the ability of the Secretary of Education to legislate through 
executive fiat, or the ability of the Department's bureaucrats to 
substitute their judgment for states'.
    History made it clear that a top down approach to K-12 education 
did not serve students, teachers, parents, or the states well, and ESSA 
directly addressed those shortcomings.
    Given the monumental shift in education policy represented by ESSA, 
it is important that we hear how implementation is progressing. . We 
know the law will not fully take effect until the coming school year, 
and we will need time to assess its impact on schools and students. 
However, I look forward to hearing from today's witnesses about the 
progress states, school districts, and the Department of Education are 
making.
    This committee has been keeping a close eye on this implementation 
process. Last year, we held four hearings on implementation of ESSA. 
Today, we will continue our discussion on ESSA's implementation.
    ESSA was truly a change for K-12 education, and I do believe this 
bipartisan law delivers the proper balance of autonomy and 
accountability to parents and taxpayers, while ensuring a limited 
federal role.
    This law has the ability to empower state and local leaders to 
change K-12 education for the better, and that is why it is of utmost 
importance to this committee.
    I look forward to hearing from our witnesses and members during 
today's hearing.
                                 ______
                                 
    Mr. Scott. Thank you, Madam Chair, for convening this 
morning's hearing on implementation of the Every Student 
Succeeds Act. I would like to thank our witnesses for appearing 
today and I look forward to hearing their testimony.
    It is regrettable, however, Madam Chair, that we are not 
hearing from the U.S. Department of Education, particularly 
considering media reports of the majority's intention to 
critique its implementation of ESSA during today's proceedings. 
I know I, for one, would greatly benefit from an open dialogue 
with the Department on ESSA implementation and for other 
matters.
    Chairwoman Foxx. you will remember that I sent you a letter 
urging Secretary DeVos and other agency heads to appear before 
the committee to discuss the administration's priorities. That 
request has not been fulfilled, so I would like to take the 
opportunity again to ask that Secretary DeVos or any other 
representative from the Department who can discuss the 
administration's priorities appear to engage in an open 
dialogue with this committee.
    Now, ESSA has been the law of the land for nearly 20 
months. Now, while that may seem like a long time in the 
lifecycle of a law as consequential as the Elementary and 
Secondary Education Act which passed over 50 years ago, it is 
really just the beginning.
    States are only now undergoing the peer review and plan 
approval process followed by months of work amidst a 
regrettable chaotic regulatory environment. As I said, I said 
this in February and March, but it bears repeating, when 
Congress used the CRA to block the regulation of title I's core 
requirements, that was unfortunate and counter to the 
bipartisan agreement in ESSA. But this body did go forward with 
the CRA and now that is the reality that we have to work with.
    That lack of regulation, however, means increased 
subjectivity in determining compliance with the law's 
requirements which makes oversight actions of this committee 
even more important. This increased subjectivity without the 
clarifying regulations is apparent in the Department's early 
feedback on State plans that were submitted in May, during the 
May submission window. Some plan components were praised by 
peer reviewers in one State's plan while the same components 
were questioned as insufficient in another. All the while other 
violations of ESSA's equity requirements were overlooked by the 
Department completely.
    Madam Chair, I am disappointed that the media description 
of the reaction from some of our colleagues in the majority who 
have characterized the Education Department's feedback on State 
plans as overreach. There is a difference between overreach and 
simply administering the program. And we need to remember that 
ESSA was not a blank check to States and districts, and while 
the law afforded States and districts much flexibility, that 
flexibility must occur within the law, including guardrails 
concerning the assessments to ascertain persistent achievement 
gaps and accountability to close those achievement gaps.
    Congress designed the law's guardrails to protect the 
interest of the underserved students. And the law contained 
important requirements, requirements Republicans and Democrats 
all agreed to when we voted for ESSA, and those requirements 
must be meaningful. Now, ESSA is not and never has been a free-
for-all. It is the responsibility of the Department as 
articulated by Congress to carefully scrutinize the quality of 
State plans and only approve those that meet the law's 
requirements.
    Even without regulations the law is the law. And the law 
requires the Secretary to review the plans, ask hard questions, 
and, if necessary, disapprove the plans in the interest of the 
students. And while, as I just mentioned, some of the content 
and overall inconsistency of the Department's feedback may be 
problematic, I do not, and none of us should, take issue with 
the Department attempting to do its job. Feedback must be more, 
not less, consistent and more, not less, vigorous. And 
ultimately, the feedback and submission of plans must result in 
approval only if the plans meet the spirit and the letter of 
the law.
    As we will hear today, many State plans leave much to be 
desired either due to ambiguity or incompleteness in response, 
or due to plan components that violate the law's equity 
requirements. It is my hope that the Department will work with 
States, including through a provision of adequate guidance and 
technical assistance, to improve the overall quality of the 
State plans and ensure implementation that honors the long 
civil rights focus of the ESEA.
    Now, such implementation is only possible with the support 
and partnership of the Federal Government. It is not only the 
role of the Department to support and monitor State efforts to 
comply with the law, but it is also the role of Congress to 
fund programs authorized by ESSA. Despite promises to implement 
the law as Congress intended, Secretary DeVos and President 
Trump proposed the elimination of bedrock ESEA programs, like 
title II-A to support teachers, 21st Century Learning Centers 
to support afterschool programs, and cuts to other programs, 
including an effective cut of nearly $600 million in title I.
    Now, while the House majority fiscal year 2018 Labor-H 
Appropriations Bill is not as draconian as the President's 
request, it fails to honor the bipartisan ESSA agreement by 
eliminating title II-A, cutting afterschool programs and 
maintaining an effective cut to title I that will be felt at 
the local level. Elimination of title II-A would result in 
thousands of layoffs and inhibit local and State efforts to 
improve teacher, paraprofessional, and school leader supports. 
Defunding this program most certainly does not align with the 
bipartisan intent of the authorizing statute.
    And lastly, Trumpcare's proposed cuts to Medicaid, if 
enacted, would devastate services for students with 
disabilities and undermine State and local efforts to educate 
all students to high standards as required by ESSA. And the 
situation would be even worse if the most recent repeal without 
a replace plan is enacted.
    Now, how effective can implementation be without funding? I 
know all too often that State and local education agencies face 
capacity challenges and I would hope to hear from today's 
witnesses about the negative impact of underfunding ESSA 
programs on faithful implementation.
    In closing, I remain concerned about many of the actions of 
Secretary DeVos and this administration concerning our Nation's 
students for example, the recent rhetoric from the Office of 
Civil Rights and the office's directive to ignore systemic data 
when they investigate alleged civil rights violations. The lack 
of agency capacity to carry out key components of the 
Department, including the absence of deputy secretaries, the 
rollback of protections for student borrowers, the rescinding 
of protections for transgender students, the sledgehammer-like 
approach to deregulation without transparency of decision-
making of the Department, and the decision to cancel the grant 
program to award $12 million to localities to provide technical 
assistance to help them desegregate their schools. All of these 
actions point to a troubling pattern that undermines the 
Federal Government's important role to protect and promote 
civil rights of all students.
    This pattern must not continue with ESSA implementation. I 
say that not out of wishful thinking or partisan spin, but 
because it is what is in the law that we enacted and that needs 
to be enforced. And ESSA is clear: it is the responsibility of 
the Department to review and provide feedback on ESSA State 
plans, make determinations of approvals, of disapprovals, based 
on compliance with the statute and partner, including through 
enforcement activities, with States and school districts to 
support the laws' implementation moving forward.
    It is the responsibility of States and districts to 
innovate within the guardrails of ESSA's equity requirements. 
There may have been a change in administration, but the law is 
the law and the Federal role is clear. I hope this committee 
commits to a robust oversight of ESSA implementation moving 
forward to ensure that it is responsibly fulfilled.
    Thank you, Madam Chair, and I yield back.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Thank you, Chairwoman, for convening this morning's hearing on 
implementation of the Every Student Succeeds Act. I'd also like to 
thank today's witnesses for appearing before us today. I look forward 
to hearing from each of you.
    It is regrettable; however, that we are not hearing from the US 
Department of Education, especially considering media reports of the 
majority's intention to critique its implementation actions during 
today's proceedings. I know I, for one, would greatly benefit from an 
open dialogue with the Department - on ESSA and on other matters.
    Chairwoman Foxx, you may remember that I sent you a letter urging 
Secretary DeVos and the other agency heads to appear before the 
committee to discuss the administration's priorities. That request has 
not been fulfilled, so I would like to take this opportunity to again 
ask that Secretary DeVos, or another representative of the Department 
appear to engage in an open dialogue with this committee.
    ESSA has been the law of the land for nearly 20 months, and while 
that may seem like a long time, in the lifecycle of a law as 
consequential as the Elementary and Secondary Education Act, it really 
is just the beginning. States are only just now undergoing the peer 
review and plan approval process, following months of work amidst a 
regrettably chaotic regulatory environment.
    I said this in February and March, but it bears repeating: I 
believe this Congress' use of the CRA to block regulation of Title I's 
core requirements was misguided and irresponsible. But counter to the 
bipartisan agreement of ESSA, this body did move forward with the CRA - 
and that is now the reality to which we must all adjust. Lack of 
regulation means increased subjectivity in determining compliance with 
the law's requirements, which makes the oversight actions of this 
Committee even more important.
    This increased subjectivity without appropriate regulation is 
apparent in the Department's early feedback on state plans that were 
submitted in the May submission window. Plan components praised by peer 
reviewers in one state's plan were questioned as insufficient in 
another's, while other violations of ESSA's equity requirements are 
ignored by the Department completely.
    I am disappointed with the reaction from some of my colleagues in 
the majority who have characterized ED's state plan feedback as 
overreach.
    Despite the soaring rhetoric, ESSA is not a blank check to states 
and districts. While the law affords states and districts much 
flexibility in decision-making, that flexibility must occur within the 
guardrails of the law - including guardrails concerning the integrity 
of assessments to ascertain persistent achievement gaps and act to 
close them. Congress designed the law's guardrails to protect the 
interests of underserved students.
    The law contains important requirements - requirements Republicans 
and Democrats all agreed to when we voted for ESSA - and those 
requirements must be meaningful. ESSA is not - and never has been - a 
free for all, and it is the responsibility of the Department, as 
articulated by Congress in ESSA, to carefully scrutinize the quality of 
state plans and only approve those that meet the law's requirements.
    Even without accompanying regulations, the law is the law - and the 
law requires the Secretary to review plans, ask hard questions and 
disapprove if necessary - in the interest of students.
    While, as I just mentioned, I find some of the content and the 
overall inconsistency of the Department's feedback to be problematic, I 
do not - and none of us should - take issue with the Department 
attempting to do its job. The feedback must be more consistent and more 
rigorous, not less rigorous. And ultimately, the feedback and 
resubmission of plans must result in approval only of plans that meet 
the spirit and letter of the law.
    As we will hear today, many state plans leave much to be desired, 
either due to ambiguity or incompleteness in response or due to 
proposed plan components that violate the law's equity requirements. It 
is my hope that the
    Department will work with states, including through provision of 
adequate guidance and technical assistance, to improve the overall 
quality of state plans and ensure implementation that honors the 
longstanding civil rights focus of the ESEA.
    Such implementation is only possible with the support and 
partnership of the federal government. Not only is it the role of the 
Department to support and monitor state efforts to comply with the law, 
but it is also the role of Congress to fund programs authorized by 
ESSA.
    Despite promises to implement the law as Congress intended, 
Secretary DeVos and President Trump proposed elimination of bedrock 
ESEA programs - Title II-A to support teachers, 21st Century Community 
Learning Centers to support after school - and cuts to others, 
including an effective cut of nearly $600 million to Title I-A.
    And while the House Majority's FY18 LaborH appropriations bill 
isn't as draconian as the President's budget request, it fails to honor 
the bipartisan agreement of ESSA by eliminating Title II-A, cutting 
afterschool, and maintaining the effective cut to Title I-A that will 
be felt at the local level. Elimination of Title II-A would result in 
thousands of layoffs and inhibit local and state efforts to improve 
teacher, paraprofessional, and school leader supports - defunding this 
program most certainly does not align with the bipartisan intent of the 
authorizing statute.
    Lastly, Trumpcare's proposed cuts to Medicaid, if enacted, will 
devastate services for students with disabilities and undermine state 
and local efforts to educate all students to high standards, as 
required by ESSA.
    How effective can an implementation be without funding? I know all 
too often that state and local educational agencies face capacity 
challenges, and I hope to hear from today's witnesses about the 
negative impact of underfunding ESSA programs on faithful 
implementation.
    In closing, I remain concerned with many of the actions of 
Secretary DeVos and this administration concerning our nation's 
students -
    * the recent rhetoric from OCR and the office's directive to ignore 
systemic data in investigating alleged civil rights violations;
    * the lack of agency capacity to carry out key department 
functions;
    * the rollbacks of protections for student borrowers;
    * rescinding protections for transgender students; and
    * the sledgehammer-like approach to deregulation without 
transparency of decision-making at the department...
    All of these actions point to a troubling pattern that undermines 
the federal government's important role to protect and promote the 
civil rights of all students.
    This pattern must not continue with ESSA implementation. I say that 
not out of wishful thinking or partisan spin, but because that's what 
the law we wrote and enacted demands.
    ESSA is clear - it is the responsibility of the Department to 
review and provide feedback of ESSA state plans, make determinations of 
approval or disapproval based on compliance with statute, and partner, 
including through enforcement activities, with states and school 
districts to support the law's implementation moving forward.
    And it is the responsibility of states and district to innovate 
within the guardrails of ESSA's equity requirements. There may have 
been a change in administration, but the law is the law and the federal 
role is clear. I hope this committee commits to robust oversight of 
ESSA implementation moving forward to ensure that responsibility is 
fulfilled.
    Thank you and I yield back.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Mr. Scott. Pursuant to 
committee rule 7C all members will be permitted to submit 
written statements to be included in the permanent hearing 
record. Without objection, the hearing record will remain open 
for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted for the 
official hearing record.
    I now turn to introductions of our distinguished witnesses. 
Ms. Jacqueline Nowicki is the director of K-12 education for 
the U.S. Government Accountability Office. Dr. Gail Pletnick is 
the superintendent for the Dysart Unified School District in 
Surprise, Arizona. Mr. Phillip Lovell is vice president of 
policy development and government relations at the Alliance for 
Excellent Education. Dr. Carey Wright is the superintendent of 
education for Mississippi.
    I now ask our witnesses to raise your right hand.
    [Witnesses sworn.]
    Chairwoman Foxx. Let the record reflect the witnesses 
answered in the affirmative.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. We allow 5 minutes 
for each witness to provide testimony. When you begin, the 
light in front of you will turn green. When 1 minute is left, 
the light will turn yellow. At the 5-minute mark the light will 
turn red and you should wrap up your testimony. Members will 
each have 5 minutes to ask questions.
    We now recognize Ms. Nowicki for 5 minutes.

TESTIMONY OF JACQUELINE NOWICKI, DIRECTOR, K-12 EDUCATION, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nowicki. Good morning, Chairwoman Foxx, Ranking Member 
Scott, and members of the committee. I appreciate the 
opportunity to discuss GAO's new report on early observations 
on State accountability systems under ESSA. As you well know, 
ESSA requires States to have accountability systems that meet 
certain requirements, but grant States flexibility in designing 
these systems.
    We focused our work on four areas of State accountability 
systems: one, determining long-term goals; two, developing 
performance indicators; three, differentiating schools; and 
four, identifying and assisting low performers. We did so 
because stakeholder groups identified these as key components 
of accountability systems under ESSA and as areas in which 
States are making changes.
    My remarks today will focus on two key areas. First, I'll 
discuss stakeholder views on ESSA's flexibilities to redesign 
accountability systems. Second, I'll discuss next steps for the 
Department of Education in implementing ESSA.
    In regards to my first point, all nine national stakeholder 
groups with whom we spoke saw ESSA's accountability provisions 
as somewhat flexible. For example, most of them praised the 
ability to define their own performance indicators.
    Most stakeholders also indicated that ESSA strikes a good 
balance between flexibility and requirements. For example, one 
stakeholder said that ESSA threads the needle very well between 
offering flexibility to design systems that meet State needs 
and requiring States to protect vulnerable populations.
    The extent to which States are changing their current 
systems varies. Some States are pleased with the systems they 
developed under their NCLB waivers and are continuing down that 
path. But for States that see their current systems as lacking 
in some way or when stakeholder consultation highlighted the 
need for significant change, we were told that ESSA provides 
room for States to consider innovative revisions.
    Our report provides many examples of how two States, Ohio 
and California, are tailoring their accountability systems of 
each of the four areas I mentioned. I would like to highlight 
one example here. To address ESSA's requirements to 
differentiate schools, Ohio plans to tweak its six current 
indicators to assess school and student performance. Some of 
these indicators would measure current performance while others 
would measure growth.
    And schools would receive a letter grade on each indicator 
as well as an overall letter grade. Ohio officials felt that 
this approach would provide detailed information on various 
elements of their performance system as well as provide an 
easily understandable high-level overview of performance.
    In California, the plan is to use a color-coded dashboard 
to differentiate school and students' subgroup performance on 
each of six indicators. Each indicator will measure current 
performance as well as growth over time.
    Unlike Ohio, California does not plan to aggregate the 
indicators into an overall score. State officials said they 
chose not to aggregate because they feel that doing so can mask 
individual problem areas. They also told us that measuring 
current performance and growth for each indicator provides a 
more complete picture of performance.
    With regard to my second point, given current timelines, 
the Department of Education remains focused on providing 
assistance to States in developing their plans and on the 
review and approval process for plans. Moving forward a key 
next step in ESSA implementation is for the Department to 
develop and implement State monitoring protocols. Although 
draft protocols were not available at the time of our review, 
education officials said that they planned to pilot protocols 
with eight or nine States in early 2018.
    The Department's goal is to review all States within a 3- 
to 4-year cycle. Education officials also told us that they are 
considering whether there is a need for additional guidance for 
States. During our review, most national stakeholder groups 
told us that States could use guidance on a number of issues 
such as how to identify and evaluate appropriate evidence-based 
interventions.
    In closing, I hope our early observations shine some light 
on how States are thinking about their accountability systems 
in the context of ESSA's flexibilities. ESSA implementation is 
still in the early days and much work lies ahead for both 
States and the Department of Education before the promise of 
ESSA can be fully realized.
    We look forward to working with you to support your efforts 
to oversee implementation of this important law. This completes 
my prepared remarks. I would be pleased to answer any questions 
you may have.
    [The statement of Ms. Nowicki follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
    Chairwoman Foxx. Thank you, Ms. Nowicki.
    Dr. Pletnick, you are recognized for 5 minutes. Would you 
turn on your microphone, please?

  TESTIMONY OF GAIL PLETNICK, SUPERINTENDENT, DYSART UNIFIED 
                        SCHOOL DISTRICT

    Ms. Pletnick. Thank you. Chairman Foxx, Ranking Member 
Scott, members of the committee, thank you for this opportunity 
to join you today. I am the superintendent of the Dysart School 
District in Arizona, and I also serve as president of AASA, the 
school superintendent association.
    I am here today because I believe it is critical we 
continue to work together to ensure the underserved populations 
in our schools truly benefit from the educational promise that 
the Every Student Succeeds Act, ESSA, was designed to deliver. 
I thank you and the committee for convening this ESSA hearing.
    The House of Representatives and the Senate are to be 
applauded for the hard work that was done to craft ESSA moving 
from the one-size-fits-all of No Child Left Behind to restoring 
control of education to the States and the local communities. 
Although ESSA may not be perfect, the power of the law is the 
flexibility it provides to States and schools allowing the 
focus to be on the individual student.
    I have the opportunity to talk with superintendents from 
across the State of Arizona and across the Nation about the 
progress made in ESSA implementation. A common thread in those 
conversations is that ESSA has created an opportunity for 
stakeholders to become more involved in goal-setting and 
establishing accountability processes as part of the 
consolidated plan requirement of ESSA.
    ESSA requires efforts to consult with and engage 
stakeholders when developing a consolidated State plan. In 
Arizona, committees and advisory groups were established to 
provide input at various stages of the plan development, 
feeding input into the process of building a final consolidated 
plan. I had the privilege of participating in some of these 
established subgroups and I also attended public meetings 
designed to provide comment on proposed components in the plan.
    I am not going to tell you that Arizona has developed the 
ideal educational plan for our State. There is definitely room 
for continued improvement as we implement ESSA, see what works, 
and continue to rollback State policies that lock in NCLB error 
constraints. Stakeholders are engaged in conversation around 
the needs in our educational systems, a discussion that is 
important to driving the improvement necessary to provide an 
equitable quality education to each student.
    A second promise of ESSA statute that many States are 
realizing is the ability to utilize multiple indicators for 
evaluation of our schools. In Arizona, we still rely heavily on 
annual summative tests, but the flexibility in ESSA started a 
conversation about other meaningful measures that should be 
considered. Although not without faults, the revised 
accountability system in Arizona attempts to add indicators of 
significance. And that is something that we continue to look 
forward to improving.
    At the high school level, indicators incorporated include 
career and technical education assessments, advanced academic 
coursework indicators, and earned career credentials. The 
State's elementary level measures of accountability are far 
more restrictive, but conversation in the State of Arizona 
continues around exploring additional important measures. While 
we don't have it 100 percent right in Arizona just yet, I can 
say the flexibility in ESSA around State accountability systems 
does encourage conversation among stakeholders about more 
accurate indicators of student and school success.
    There were challenges with the implementation of ESSA law. 
Time was definitely one of the biggest challenges. After the 
passage of the law, there was discussion related to the 
interpretation of the law and possible or proposed regulations 
and that debate caused some hesitation.
    Arizona released its first draft and started the 
consolidated planning process in September of 2016, and the 
plan required adjustments before our submission for the 
September 2017 deadline. Another complication as it related to 
time is that some States, including Arizona, had laws in place 
better aligned to No Child Left Behind mandates or waivers. 
With those State laws still in existence, there was an impact 
on what was required in our State plan and accountability 
system.
    Although that is not a Federal concern, it does impact how 
innovative our State plans may be at this point. A great deal 
of time and effort went into Congress writing this piece of 
legislation and negotiating on those critical components that 
make ESSA a good piece of educational legislation.
    The ultimate success of ESSA lies in our implementation, 
yes, but also in Federal appropriations. It is critical 
Congress match the bipartisan support demonstrated for the 
policy of the law and appropriate the funding support.
    I respectfully submit that as we continue to work together 
to implement ESSA and ensure it has the intended impact that we 
be cognizant of the important complementary role of adequate 
Federal investment. The students in our schools are our future 
leaders, our future workforce, and we must invest in our future 
by investing in public education.
    In closing, thank you to the committee for the work you 
have done and continue to do to ensure that the Every Student 
Succeeds Act drives the change we all want to see in our 
schools: equity in our classrooms regardless of a student's 
background, where they live, or the circumstances they live in. 
Your work has ensured our State and local communities have a 
voice in what happens in our districts and our schools.
    I know, given the opportunity, educational leaders across 
this country will use that voice to deliver on the promise of 
ESSA. Thank you so much.
    [The statement of Ms. Pletnick follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Chairwoman Foxx. Thank you, Dr. Pletnick.
    Mr. Lovell, you're recognized for 5 minutes.

     TESTIMONY OF PHILLIP LOVELL, VICE PRESIDENT OF POLICY 
 DEVELOPMENT AND GOVERNMENT RELATIONS, ALLIANCE FOR EXCELLENT 
                           EDUCATION

    Mr. Lovell. Thank you very much. Chairwoman Foxx, Ranking 
Member Scott, and members of the committee, thank you for the 
opportunity to testify on the implementation of the Every 
Student Succeeds Act. My name is Phillip Lovell and I am the 
vice president for policy development and government relations 
at the Alliance for Excellent Education. We are a national 
nonprofit organization dedicated to ensuring that every child 
graduates from high school, ready for college, career, and 
citizenship.
    I have four core messages for you today. First, ESSA is a 
civil rights law designed to ensure equity and excellence in 
education. Second, ESSA preserves an important role for the 
U.S. Department of Education. Third, the quality of ESSA State 
plans is uneven. And fourth, funding cuts threaten the 
implementation of the law.
    Let me begin with point one. ESSA is fundamentally a civil 
rights law with many Federal requirements designed to promote 
educational equity and prepare students for postsecondary 
education and the workforce. ESSA provides States with a 
significant level of flexibility when it comes to how they 
achieve equity and excellence, but ESSA is not a blank check.
    Both States and the Department of Education must implement 
and enforce all of ESSA's equity-focused requirements, a sample 
list of which appears in my written testimony.
    Second, when Congress enacted ESSA it preserved the limited 
but critical role of the Department of Education. While I may 
not agree with all of its findings, the Department is 
appropriately carrying out its oversight role as required under 
the law. I want to be clear that this isn't about whether we 
trust States. I have worked with many State leaders and I know 
that they are committed to kids, and one needs to look no 
further than my colleagues testifying today to know that is a 
fact.
    The fact does remain, though, that it is the Department's 
job to review the State plans and to ensure that they comply 
with the law that this committee wrote. These plans lay out a 
State's vision and commitment to children, parents, and the 
public, and it will impact students and teachers for at least 
the next decade. We have to get this right and the Department 
has a critical and statutorily required role to play.
    Third, the quality of ESSA State plans is uneven. There are 
certainly some strengths, but there are missed opportunities 
and many weaknesses, including some proposals that simply 
violate the law. In particular, many plans fall short of the 
equity promise of ESSA.
    And let me give you a few examples. ESSA made a commitment 
that if a school has a single subgroup that consistently 
underperforms, either the African American students, Latino 
students, the school would be identified for targeted support 
and those kids would receive help. ESSA applies this 
requirement to each individual subgroup separately because 
groups of students perform differently. And if you combine them 
together you can mask the low performance of a single group.
    Unfortunately, this is exactly what some States are doing. 
One State combines the achievement levels of African American, 
Latino, and native students together even though this creates a 
risk that the schools may not be identified for support when 
they should be. It also violates the law.
    A related but distinct problem is that States are not 
including historically underserved kids in their school 
ratings. For example, a school might receive an A despite the 
fact that African American students or Latino students or 
students with disabilities or low-income kids, other 
historically underserved groups might have, say, a low 
graduation rate. So you can receive an A even though, say, 
African American kids could have a graduation rate of 60 
percent.
    Another problem for equity in ESSA plans relates to the 
identification of subgroups for support. Several States have 
proposed identifying subgroups for support if they aren't on 
grade level in math or reading or if they have a low graduation 
rate, and this makes a lot of sense. Unfortunately, the 
Department has actually pushed back on this approach. Students 
should not have to fail on everything before they are 
identified for support.
    In addition, it is worth noting that while ESSA's 
flexibility was intended to unleash creativity and innovation, 
by and large this has not happened. We hope to see policies 
that would promote critical thinking and problem-solving, 
sometimes called deeper learning. And although there are a few 
notable exceptions described in my written testimony, and here 
to my left I would say, State plans thus far are cautious, not 
courageous.
    Finally, I join my colleagues in expressing concerns about 
funding. Money is not magic, but I am concerned about the 
impact of funding cuts on ESSA. ESSA provides States with 
flexibility and responsibility. But, Madam Chair, 
responsibility without resources will not yield results.
    By freezing funding for title I, underfunding title IV, 
proposing to eliminate or reduce funding for professional 
development, literacy, afterschool programs, on top of proposed 
cuts to Medicaid that jeopardize the services that schools 
provide to our most vulnerable kids, we are handcuffing States 
at the exact moment that we have supposedly given them freedom.
    This is unfortunate because the Nation is on an upswing in 
education. Graduation rates are at an all-time high, including 
graduation rates for students who have been historically 
underserved. By implementing and enforcing ESSA's requirements 
and strengthening our investment in education, we can ensure 
that every child in American succeeds.
    Thank you, and I would be happy to answer any questions.
    [The statement of Mr. Lowell follows:]
    
    
    
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairwoman Foxx. Thank you, Mr. Lovell.
    Dr. Wright, you are recognized for 5 minutes.

 TESTIMONY OF CAREY WRIGHT, STATE SUPERINTENDENT, MISSISSIPPI 
                    DEPARTMENT OF EDUCATION

    Ms. Wright. Thank you. Before I want to start I wanted to 
introduce people that are key to the implementation of this 
back in my State. I have my State board chair, Ms. Rosemary 
Aultman, with me; the vice chair, Dr. Jason Dean; and one of my 
chiefs who is responsible for legislation and communication who 
are here with me today. So thank you.
    Chairman Foxx, Ranking Member Scott, and members of the 
committee, thank you for the opportunity to testify about 
Mississippi's work to implement the Every Student Succeeds Act 
or ESSA. I look forward to sharing my perspective as the state 
superintendent of education for Mississippi, and I am also 
president-elect of the board of directors for the Council of 
Chief State School Officers.
    ESSA has given Mississippi the opportunity to create a plan 
specifically designed for the students of our State. At the 
same time, the law provides guardrails to ensure our work is 
appropriately targeted toward improving educational 
opportunities and outcomes for all students and all schools.
    Our plan is called Mississippi Succeeds and we are proud 
that it builds upon our State board's strong strategic plan to 
prepare students for college and careers. This strong 
foundation includes a rigorous academic standards for all 
students, aligned assessments to track student achievement, and 
an accountability model that clearly measures the performance 
of our schools and our districts.
    Our ESSA plan also builds upon the significant investments 
that Mississippi has made in early childhood education, 
literacy, career and technical education, advanced coursework 
opportunities for students, and professional development for 
all teachers. All of these initiatives have broad stakeholder 
support and have resulted in improved student outcomes.
    To design Mississippi Succeeds we again sought raw input 
from stakeholders over an 18-month period to craft a plan 
tailored to the needs of our students. During those 18 months, 
we conducted a listening tour which included 15 public meetings 
throughout the State. We hosted targeted meetings with specific 
stakeholder groups, and collected feedback through an online 
survey.
    Among our most active participants were advocates for the 
underserved, majority African-American communities in rural, 
low-income areas of the State, parents of students with 
disabilities, and teachers of English language learners. 
Mississippi has a small but growing population of English 
learners and most of the teachers of the English learners who 
participated in our feedback sessions were the only people in 
their schools whose work was dedicated to English learners.
    Throughout these meetings and the online survey, we 
gathered 7,300 feedback points. We established working groups, 
and we established an ESSA advisory committee made up of 
stakeholders to provide us feedback and input throughout the 
entire development of our plan.
    We intend to keep all of our partners engaged in our 
implementation of the plan through regular meetings with our 
stakeholders as well as with the ESSA advisory committee. The 
robust participation of stakeholders helped Mississippi develop 
a strong plan to meet the requirements of ESSA. And I am 
especially excited about the following aspects of our plan; 
providing effective teachers with the opportunities to not only 
teach children, but to work collaboratively to lead colleagues 
to improve their practice, expanding early childhood to support 
early childhood educators in a variety of pre-K settings to 
implement developmentally appropriate practices in their 
classrooms, improving schools by investing in the local 
teachers and administrators, supporting communities through P16 
councils, strengthening parent engagement through school-based 
activities.
    We appreciate the flexibility of ESSA because we intend to 
include subgroup performance to identify schools for school 
improvement support. This will have the greatest impact on 
African American students who make up our State's largest 
underperforming subgroup. We are expanding career and technical 
education to provide continuous computer science education in 
grades K through 12 and to provide our high school students 
with the opportunity to graduate with a career and technical 
diploma endorsement that is of equal value to an academic 
endorsement.
    We are putting a strong focus on eliminating the 
proficiency gap between African Americans and all students 
entirely so that the proficiency rates for all of our subgroups 
will increase to 70 percent by 2025. All of these initiatives 
are dependent on Federal support for public education. As a 
State chief, I understand that Federal resources are limited 
and that States must be effective stewards of tax dollars.
    Mississippi's ESSA plan is built around the targeted and 
efficient use of Federal funds to maximize the impact on 
student achievement, especially of our most disadvantaged 
students. I want to thank you for the flexibility that you have 
provided through the Every Student Succeeds Act, and as you can 
see, our Mississippi Succeeds will expand the State's education 
reform efforts to improve opportunities and outcomes for all 
students.
    Mississippi's future will be shaped by the students of 
today and we are deeply committed to equipping them to learn, 
build, create, serve, and innovate. We believe in the capacity 
of our students to achieve and we believe in the ability of our 
teachers and schools to guide them to a successful future. ESSA 
is at the heart of our work. Thank you.
    [The statement of Ms. Wright follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Chairwoman Foxx. Thank you, Dr. Wright. Thanks again to all 
of our witnesses.
    Mr. Wilson, you are recognized for 5 minutes for questions.
    Mr. Wilson of South Carolina. Thank you, Chairwoman 
Virginia Foxx, for your extraordinary leadership providing for 
this hearing today. And I want to thank each of you for being 
here today. I especially appreciate your service because I am 
the very happy husband of a dedicated teacher. And I want to 
keep her happy, too, so thank you for what you are doing.
    And, Dr. Wright, South Carolina students greatly benefit 
from career and technical education with partnerships with 
companies such as BMW, MTU, Michelin, and Boeing, and the South 
Carolina Technical Education System. South Carolina has been 
very fortunate with a division of technical education being 
promoted under the leadership of State superintendents of 
education from Dr. Barbara Neilsen to today with the Honorable 
Molly Spearman.
    In your testimony you include several aspects of your 
State's plans to meet the requirements of the Every Student 
Succeeds Act, and you cited the efforts of career and technical 
education. Can you elaborate your promotion of career and 
technical education for the citizens of Mississippi?
    Ms. Wright. Yes, I will. About 65 percent of the jobs that 
are currently available in our State are requiring metal 
skills. And so we have formed a committee that is working not 
only with our State Workforce Investment Board, but also on the 
implementation of the Workforce Investment Act. We have four 
sectors in our State and what we have done is we have 
established groups in each of those sectors to work directly 
with the businesses in those sectors so that we can then come 
back and design CTE plans that will allow our children to go, 
starting in high school, graduate from high school, and go 
immediately into the workforce. Our State needs that immediate 
piece and that is what we have got planned as well.
    Mr. Wilson of South Carolina. And what a meaningful and 
fulfilling life you help young people achieve, so thank you for 
what you do.
    And, Dr. Pletnick, I want to thank you for your testimony 
on a very important issue and that is local elected school 
boards. And I know that my view is that they work best for our 
students. I learned this firsthand. My dad was a school board 
member in Charleston. I served in the State senate working with 
school boards and found out the extraordinary diversity within 
a single district that these school boards have to address, and 
they are hard work, but the extraordinary dedication of school 
board members.
    Your testimony promotes, again, moving from one size fits 
all. Can you provide more detail on how the Every Student 
Succeeds Act will help restore local control of education and 
allow educators to address the unique needs of individual 
students?
    Ms. Pletnick. Member Wilson, thank you for that question. 
In the Dysart Unified School District, we utilize a strategic 
planning process, so our community gives us that feedback. We 
work with our business partners. We work with our parents to 
ensure that we are meeting the needs of our students in our 
local community. And our school board is that connection. So 
they are the elected officials.
    The ESSA has allowed us then to work through our State to 
ensure that the multiple measures that we are utilizing speak 
to those needs of our students, certainly our underserved 
population, but really for all students making certain that 
they are future ready.
    We, too, have a very strong career and technical education 
program because we hear from our local community and from our 
business partners that there are opportunities. We have Luke 
Air Force Base in our backyard. We recently took a tour and it 
takes 2 billion lines of code to run the F-35. They have that 
mission. And so we are ensuring that our students have 
opportunities with coding and other pieces.
    That is something that is a strong piece in our strategic 
plan as we move forward. And so again, ESSA provides us that 
opportunity to look at multiple indicators and those that would 
truly serve our underserved population, but all of our students 
as well.
    Mr. Wilson of South Carolina. And thank you for, again, 
looking out for all students. As I served in the State senate, 
now Congress, I represent a district, Lexington 1. The 
diversity there, you have resort areas. You have very upscale 
subdivisions. You have normal middle class subdivisions. You 
have a small town. You have rural communities and then you have 
agricultural communities. That is in one district. And so the 
local school board is just so important.
    And, Ms. Nowicki, I want to thank you for your service and 
your promotion of flexibility. Can you explain how flexibility 
of the act would provide for a different approach in adopting 
performance indicators?
    Ms. Nowicki. Sorry, sir. You are asking how the flexibility 
of the act could?
    Mr. Wilson of South Carolina. Assist with performance 
indicators - in determining performance indicators.
    Ms. Nowicki. Sure, sure. So there were a couple of 
different examples in our report where States were making 
different decisions, I think, around performance indicators. 
The way they defined subgroups, how they were choosing to use 
summative or overall ratings versus individual ratings on 
indicators.
    I think it provides flexibility for States to do whatever 
they think makes sense for them in their local context while 
providing sufficient guardrails to protect vulnerable 
populations and subgroups.
    Mr. Wilson of South Carolina. Thank you very much.
    Chairwoman Foxx. Thank you, Mr. Wilson.
    Mr. Courtney, you are recognized for 5 minutes.
    Mr. Courtney. Thank you, Madam Chairwoman, and thank you 
for holding this really important hearing, but I want to join 
the ranking member in saying how I think a lot of us feel 
frustration about the fact that the Secretary of Education has 
not yet appeared before this committee. It has been 6 months 
into this administration. We have had a budget out since May. 
And looking historically, we have always had the Secretary of 
Education appear before this committee to take questions from 
members about issues of the day.
    And clearly, what we are talking about today for all of us 
listening to our commissioners back home, stakeholders who have 
been working hard on implementation of ESSA, there is a lot of 
confusion out there, and we need people from the Department, 
particularly the person who is in charge, where the buck stops, 
to answer questions about where are we going.
    The ESSA was signed into law on December 10, 2015. It was 
actually a really inspiring tableau to see President Obama 
signing that law with Senator Lamar Alexander, Republican 
leader in the Senate, Mr. Rokita from our committee was 
standing behind the president. Again, it was a lot of hard work 
that went into that to, again, achieve some of the goals that 
some of the witnesses have talked about here today.
    But fast-forward and it is really not that early in the 
implementation of the law to where we are today in 2017. There 
is a lot of confusion out there about just the mixed messages 
and signals that are coming out of the Department as States are 
working hard to try and, again, achieve the goals of this 
legislation. It has not been helped, by the way, by the fact 
that the Republican majority chainsawed out of the Federal law 
the regulations, back in May, with the Congressional Review Act 
enactment that President Trump signed into law. That, again, 
just completely eliminated, you know, the roadmap that had been 
put into place by the Department.
    Again, I had questions about some of those regs. But the 
fact is now we have a black hole in the Federal law in terms 
of, you know, how ESSA is structured and designed. And when you 
talk about confusion out there, frankly, the majority added to 
that confusion by, in my opinion, just indiscriminately 
butchering the regs that were in place.
    And so that is where we are today. Again, my State of 
Connecticut did everything right, I think, in terms of pulling 
together stakeholders. They worked like, you know, very 
diligently in terms of coming up with a plan which was 
submitted. Again, it got kicked back about a month or so ago.
    Talking to the folks in that Department, you know, they 
want to, you know, work collaboratively, but, frankly, there is 
tremendous confusion about, you know, which direction they are 
supposed to go in. And frankly, again, it is just another 
reason why the Secretary should be here today answering 
questions to all of us about where she, in fact, intends to 
take this Department.
    We know when there's confusion in Washington going back to 
the infamous words of Deep Throat during the Watergate scandal, 
follow the money. Again, Mr. Lovell, I would just like to sort 
of follow up your comments. We obviously have seen a budget 
come out of this administration in terms of their priorities as 
far as title I, title II, afterschool. Again, one of the goals 
of ESSA was to move away from the punitive approach of No Child 
Left Behind and to try and help districts who had been 
identified as underperforming.
    And again, I just would ask you to comment further about, 
you know, cutting these programs, in fact, removes the 
resources that ESSA was built around in terms of trying to help 
school districts that are struggling.
    Mr. Lovell. Thank you very much. I could not agree more. In 
fact, it is interesting. So one of the issues that came up just 
a few minutes ago, Mr. Wilson, you brought up career and 
technical education. And I think that is a huge opportunity 
within this law.
    And, first, let me applaud the committee for its works on 
the reauthorization of the Perkins law. Unfortunately, because 
of the levels of funding that are being proposed for things 
like career and technical education and the cuts therein, we 
are not able to implement a lot of those programs.
    Right now, with States having the ability to design their 
plans and implement them, the integration of rigorous academics 
with CTE is a major opportunity. There is language specifically 
in the law that you wrote within title I that allows States to 
do this and not only that, you allowed States to use up to 3 
percent of their funding for direct student services.
    And one of the uses of the direct student services funding 
that you allowed was the provision of CTE that leads to an 
industry-recognized credential. Very few States are planning to 
use this 3 percent set-aside for direct student services. And 
why? Well, it is because they feel like it cuts into their 
title I budget.
    So by level funding title I by cutting elsewhere, that 
means the title I dollars are going to have to go towards other 
things. And it means that States do not have the ability to 
really carry out the vision of the law that this committee set.
    Mr. Courtney. Thank you. I yield back.
    Chairwoman Foxx. Thank you, Mr. Courtney.
    Mr. Walberg, you are recognized for 5 minutes.
    Mr. Walberg. Thank you, Madam Chairwoman, and thank you to 
the panel being here. And I would concur with Mr. Courtney as 
well that it would be a great opportunity and time when we have 
a chance to hear from our Secretary of Education. I believe my 
colleagues would be impressed with her as much as I am 
impressed with her abilities and yet, we also hope that there 
is a stopping of the stonewalling and blocking of confirmations 
that would assist her with people who can be undersecretaries, 
assistants, et cetera, to help in the process moving forward 
with something she has identified, ESSA, something she wants to 
implement as intended, as we intended fully. So I look forward 
to that as well.
    But today we have these witnesses here and, Ms. Nowicki, 
thank you for being here. In your testimony you mentioned that 
the Department is considering additional areas of guidance that 
might be needed for States as they implement ESSA. Has the 
Department said what those areas might be and how will they 
determine if that additional guidance is, in fact, needed?
    Ms. Nowicki. Yes, sir. The Department has said that they 
are conducting a review of all of their current guidance that 
is available and looking for gaps or areas where States might 
need additional assistance. They have various ways to do that. 
They have mentioned webinars that they hold and meetings that 
provide a forum for States to share some concerns or some areas 
where they may need guidance.
    In our work, stakeholders who are working directly with 
States developing their plans mentioned a couple of areas as 
well.
    Mr. Walberg. If you could highlight some of those?
    Ms. Nowicki. Surely. One is how to select evidence-based 
strategies and measure their efficacy in the States. It is not 
unusual throughout government and in the States for there to be 
a lack of capacity in terms of knowing how to evaluate 
strategies. So that was one area.
    A second area was noting that because ESSA provides much 
more funding flexibility than did NCLB, helping States 
understand the broad funding flexibilities that they do have 
available to them and the law would be useful for States.
    Mr. Walberg. And those flexibilities are just name a few of 
those? Flexibilities ----
    Ms. Nowicki. Funding flexibilities to combine funding 
streams under the law in ways that they were not able to do 
under NCLB.
    Mr. Walberg. With local States, et cetera?
    Ms. Nowicki. Yes, different Federal and State local funds 
together.
    Mr. Walberg. Okay. Ms. Nowicki, this is obviously an 
initial look at early implementation of ESSA, but do you 
believe there is future work GAO could do on this topic as 
States put the law into practice over the next few years?
    Ms. Nowicki. Absolutely. I think in the shorter run two 
areas may be important. One, I think it will be important to 
pay attention to how Education's monitoring protocols are 
shaping up. ESSA obviously encourages a much more State-driven 
approach in developing their plans and we would want to see 
monitoring protocols reflect that. Yet developing them in a way 
that also holds States accountable for Federal requirements may 
take some doing.
    Two, I think it will be important to look at how States are 
making the public aware of differences in school and district 
performance in their States and whether key stakeholders find 
that information useful. We like to say at GAO that data is 
only useful if it is used and that usefulness is in the eye of 
the beholder. So if stakeholders and parents are not able to 
access the information or do not find that it is telling them 
things that they would like to know, I think it would be 
important to know that.
    Mr. Walberg. Well, I appreciate that and, Madam Chairwoman, 
I appreciate the fact as we heard that testimony we talked more 
about stakeholders at the local and State level as opposed to 
Federal and that is a good thing.
    Dr. Pletnick, thanks for being here. ESSA returns 
significant authority to school districts to determine how to 
intervene in and how to improve low-performing schools, which 
is important to consider if we are expecting education to reach 
the masses of our country. What initiatives are in place in 
your district or are you working to implement that will do just 
that?
    Ms. Pletnick. Member Walberg, we have put in place a number 
of initiatives. First of all, when we are looking at each of 
our schools we take a proactive approach rather than reactive 
approach. So we make sure that the programs that we have in 
place are providing that high-quality education. We use an RTI 
process in which we have tiered intervention. So tier 1 is that 
classroom. We need high-quality teachers delivering high-
quality instruction.
    And then if we do have our struggling students, especially 
in our underserved populations, we need to evaluate what it is 
their specific needs are. Again, I believe ESSA versus No Child 
Left Behind allows us to focus on that individual student, not 
just the aggregate.
    So we provide those interventions sometimes through 
interventionists. We have online programs because we really 
want access 24/7 for our students in order to provide the 
supports they need. And again, the intensity of those 
interventions continues to grow as we work with the individual 
student to fill those needs.
    The other thing that we are doing across the district is 
personalized learning. So we are looking at what the students' 
strengths are, certainly their area of challenges, but also 
their interests because we need to engage our students in their 
learning. We need them to own their own learning.
    So we are working on ways to really not only have them own 
that learning, understand about progress, but also ways that we 
could use space and place and pace differently.
    Chairwoman Foxx. Dr. Pletnick, I am going to have to ask 
you to wind up.
    Ms. Pletnick. Thank you.
    Chairwoman Foxx. Thank you very much.
    Mr. Walberg. Thank you. I yield back.
    Chairwoman Foxx. Mr. Polis, you are recognized.
    Mr. Polis. Thank you, Chairwoman Foxx and Ranking Member 
Scott, for holding this important education hearing. You know, 
when I first ran for Congress several years ago, one of the 
main reasons I ran was to fix our outdated education policy, No 
Child Left Behind. During my time on the State Board of 
Education in Colorado and as a school superintendent, I saw a 
lot of the flaws of No Child Left Behind firsthand and I was 
thrilled to work on the Every Student Succeeds Act in this 
committee, in the conference committee. A number of bills that 
I wrote were incorporated into that bill and I was very excited 
by a step forward that I think everybody felt was better than 
its predecessor.
    Now, I am troubled now by some of the comments I have heard 
from my Republican colleagues, who seem to be suggesting that 
since we passed the Every Student Succeeds Act, States can 
somehow do whatever they want. The goal of the Every Student 
Succeeds Act was to maintain, of course, our civil rights, 
guardrails, and safeguards, and, in fact, to provide school 
districts and States the flexibility to do what works, but not 
the flexibility to fail and to do nothing.
    No one here voted to let States and school districts fail 
when we passed the Every Student Succeeds Act. So we should not 
be surprised the Department of Education is providing 
meaningful and positive feedback to the States. It helps them 
to develop and implement their ESSA plans and that they will 
only approve plans that meet the law's requirements. That was 
the requirements that we, as a body, you know, overwhelmingly 
voted to include in the actual law.
    Dr. Pletnick, I wanted to thank you for being here today. 
Really one of the ironies that I see is while the Department of 
Education is trying to do a good job providing feedback to 
States, at the same time, both by the President's budget and 
the congressional Republicans', they're slashing funding for 
some of the key programs, and I want to highlight one in 
particular.
    Colorado, like many other States, went through an extensive 
stakeholder engagement process to develop title II as part of 
our State plan for teacher and professional development. Last 
week, House Republicans moved forward with the budget that 
eliminates funding for title II, part A, the real significant 
funding stream for teacher professional development and 
classroom size reduction.
    How can States deal with this uncertainty around the use of 
funds for teacher and professional development and classroom 
size reduction that are already included in their plans if the 
funding goes away?
    Ms. Pletnick. Thank you for that question. That is a 
problem. When there are funding cuts that means either the 
elimination or cutting back on programs and many of these are 
critical. I can tell you in the State of Arizona for title II 
the impact would be about $16.9 million in professional 
development. That is supporting more than 34,000 educators. 
Class size reduction would be impacted and that would impact 
about 137 positions that we have. And statewide the impact of 
the total title II elimination would be about $32.5 million. So 
it would have a devastating impact in those areas.
    Mr. Polis. And given that those education plans included 
the use of that money for teacher training classroom reduction, 
does that mean that it will send, in effect, States back to the 
drawing board for their title II plans and their teacher 
training plans?
    Ms. Pletnick. I think that would be correct because our 
budgets are very tight and so, again, when we have elimination 
of funding, that means you have to go back and look at your 
programs. And quite frankly, all of the programs that we have 
in our own district I can say are essential, including those 
that we provide for professional development.
    Mr. Polis. And for Mr. Lovell I wanted to ask, you know, 
one area where we also made progress in the Every Student 
Succeeds Act is early learning, the most important, the studies 
show, investment in early childhood education. We authorized a 
new preschool development grant program. The law will hopefully 
facilitate better collaboration between early learning and K-
12. Can you talk about how States so far are taking advantage 
of new opportunities to support early learning under ESSA and 
what lessons we can learn from some of the States that have 
submitted their early learning components and their plan?
    Mr. Lovell. Thank you, Mr. Polis. Well, really the answer 
to that question goes back to your first question, which is 
that plans that might be in place or ideas that we might have 
are going to be severely undercut if there is no resources to 
fund them. And so you have cuts that are being proposed both by 
the administration, by the House Labor-H Committee, you have 
got cuts being pondered for Medicaid. You put all that together 
and it is hard for States to really envision something robust 
and necessary and costly like a robust early childhood program.
    Mr. Polis. Yeah, and I think, you know, to clarify what you 
are saying, when our committee writes the authorizing 
legislation, the Every Student Succeeds Act, it's only as good 
as the funding that actually funds those programs that we 
authorize.
    Dr. Wright, can you briefly share more about what 
Mississippi is doing in early learning?
    Ms. Wright. Absolutely, and thank you for that. We passed a 
law establishing early learning collaboratives. That was the 
first time that we went into that foray. We are also looking 
and monitoring the results of that. We, with our kindergarten 
assessment, we realized that two-thirds of our children that 
were entering kindergarten were not prepared. So we knew that 
there was a need for pre-K.
    And so now we are also reaching out to all of the pre-K, 
public or private, in order to provide them with professional 
development. We do that free of charge to anyone that teaches 
three- or four-year-olds in our State. And we honestly believe 
that it is a lever that is going to make a difference in the 
State of Mississippi. So we have a lot of interest in that and 
a lot of infrastructure that we are putting toward that.
    Mr. Polis. I thank the gentlelady. And just in brief 
closing, I will just inquire of the chair if we have invited or 
plan to invite Secretary Devos for an oversight hearing before 
our committee as well. And I will yield back with that inquiry.
    Chairwoman Foxx. The gentleman yields back. We do plan to 
invite her.
    Mr. Guthrie, you are recognized for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairwoman, for yielding. I 
appreciate the time. And this question is actually--is based on 
the testimony from Dr. Wright but, Dr. Pletnick, I would like 
for you to answer this as well, but it is based on Dr. Wright's 
testimony would be applicable I am sure. It says one in 
Kentucky, Education Commissioner Stephen Pruitt in the Kentucky 
Department of Education, found similar successes in hosting 
town halls across the State, engaging partner organizations, 
and accepting public comment in order to craft a new assessment 
of the accountability system.
    When it was all said and done, the Department received an 
input of 6,000 Kentuckians on the matter. Based on the feedback 
you received in your town halls, what were the biggest changes 
stakeholders wanted to see reflected in your State plan?
    Ms. Wright. They wanted to see more communication between 
schools and districts. They also were interested in not 
necessarily defining teacher effectiveness by years of 
experience and licensure, but by linking it more to student 
outcomes. And that we heard loud and clear. They really viewed 
an effective teacher as one that produced positive outcomes in 
children.
    And so those are two key pieces, if you will. There were 
several, but those were two that we take to heart. We are 
already in the process of designing resources that we have 
continued to push out to our districts and our schools to help 
them better engage with parents at the local level. And also we 
are revising our whole teacher evaluation system to really look 
at it as more of a professional birth system and driving that 
around linking it to our student outcomes, which is what we are 
hearing from our constituents.
    Mr. Guthrie. Okay, Dr. Pletnick, did you have similar 
experiences?
    Ms. Pletnick. We did, and there was a great deal of 
discussion around those multiple indicators and really 
redefining ready, what future-ready means. So there was 
discussion about the career and college index. There was 
discussion about what are those other significant and 
meaningful indicators that would keep us transparent and help 
our parents, our community understand the accountability system 
and what student success looks like.
    Mr. Guthrie. Okay. What kind of examples of indicators did 
you--were you ----
    Ms. Pletnick. So in the end we, as I had mentioned earlier, 
we do have college and career indicators. We do also have 
indicators around other national assessments that are utilized 
as kind of opening or gatekeepers into higher education. We do 
have advanced coursework as well.
    So there really is a very long list of indicators that are 
now considered as part of our accountability.
    Mr. Guthrie. How are you, once this is all implemented and 
moving forward, planning, like, additional town halls to try to 
continue to seek feedback for continuous improvement or what 
kind of methods are you going to try to still have stakeholder 
feedback? Continue what you are doing?
    Ms. Pletnick. I would hope that at our State level with our 
state department, and there is no reason to believe that won't 
be the case, that we will continue to look at what is in place, 
analyze the data we are collecting, and see how we can refine 
and improve moving forward.
    Ms. Wright. And that is exactly what Mississippi is 
planning on doing. We want to stay engaged with our 
stakeholders. They have invested a lot of time and energy in 
this. I have also got a very large ESSA advisory council that I 
intend to keep onboard with very diverse group of folks. So we 
have got to make sure that we are meeting the needs of our 
constituents and those are two very strong ways that we can do 
that.
    Mr. Guthrie. Thank you very much. And I have one for Ms. 
Nowicki. I have heard concerns from the Kentucky Department of 
Education that the department has provided that your Department 
here, the Federal Department, has provided inconsistent 
feedback to States that submitted plans early when compared one 
to another. Is this something the GAO has found to be true? And 
if so, what is the Department doing to provide consistent 
guidance?
    Ms. Nowicki. Yes, sir. So GAO, as you know, does not have a 
statutory or other role in reviewing State plans. At the time 
that we did our work there were only a couple of plans that had 
been submitted in draft for feedback. So we did not have any 
information from the Department about feedback on the plans at 
the time we did our work.
    Mr. Guthrie. Do you have a--well, okay. So you did your 
study before you would have been able to see whether there was 
inconsistent ----
    Ms. Nowicki. Yes, sir.
    Mr. Guthrie.--feedback, one plan against one and one plan 
against another? That is something that we hopefully will be 
able to look into as we move forward.
    Mr. Lovell. I mean, if I may?
    Mr. Guthrie. Yeah.
    Mr. Lovell. I can provide some thoughts on this. I mean, I 
think that there definitely were areas where feedback was 
inconsistent. I think part of it has to do with the fact that 
without the regulations, there are fewer specific rules around 
some of the vague areas in the law.
    So one area where--and a question came up earlier around 
areas that the Department could provide future guidance in. I 
think one area, as Dr. Pletnick was describing, the various 
indicators that can be selected, this is an area where the law 
gives States flexibility and even provides some examples of the 
indicators that States can use.
    A number of States are interested in really prioritizing 
college and career readiness. So they are including things like 
access and performance in advanced placement, international 
baccalaureate, dual enrollment, early college. Feedback to one 
State was somewhat negative about the State's approach to this 
and we are fearful that feedback like that without additional 
guidance as to how those things can be included in the 
accountability could put the freeze on State innovation and 
doing what we all want States to be doing.
    After all, the law specifically says that States can 
include access and performance on advanced coursework. And then 
when a State tried to do it, they got a little pushback from 
the Department.
    Chairwoman Foxx. Mr. Lovell?
    Mr. Lovell. So I think that is an area where you have some 
additional guidance.
    Chairwoman Foxx. Mr. Lovell?
    Mr. Guthrie. Thank you. That was helpful. My time is 
expired and I yield back. Thank you for those comments.
    Chairwoman Foxx. Yes, sir.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you, Chairwoman Foxx and Ranking Member 
Scott, for holding this important hearing about the 
implementation of the Every Student Succeeds Act. I want to 
also join my colleagues who expressed their opinion, and I 
agree that it would be very helpful to hear from the Secretary 
and the Department as we are talking about implementation.
    I worked on education issues in my home State of Oregon at 
the local level and then in the State legislature and it 
quickly became clear that the real work needed to be done at 
the Federal level. And so at the top of my legislative agenda 
list when I joined Congress was rewriting No Child Left Behind. 
And I was thrilled to serve on the committee when we worked on 
Every Student Succeeds Act and on the conference committee and 
be there at the bill signing and it was a great day. And it was 
looking forward to implementation.
    So needless to say, I was disappointed earlier in the year 
when the majority instead of talking about which regulations 
were problematic and which they could support, instead got rid 
of all of them through the Congressional Review Act and blocked 
important regulations related to statewide accountability 
systems, consolidated plans, and data reporting.
    And then at the same time, the new administration, left 
without their implementing regulations, attempted to rush 
through revised guidance for peer reviewers, and there was a 
modified template for State plans, and new explanatory 
documents, and all of this was taking place less than a month 
before the initial deadline for submitting the plans, and after 
many States were well on their way to completing their plans.
    So I do not think we should be surprised that there has 
been uncertainty and confusion. Disappointed, yes, but not 
surprised. And in fact, without the ESSA regulations, now 
there's a conversation about which NCLB regulations are still 
in effect and what do we do about those.
    So what we really need is for the Department to play a 
reliable role in enforcing compliance with the statutory 
requirements and the law and clearing up areas of ambiguity and 
helping States take advantage of the flexibility that is such 
an important part of the law. And I know in my home State of 
Oregon, I had conversations as they were working on their plan 
about the lack of certainty.
    And they appreciate the flexibility, but do not want to go 
down a path and then months later be told that you can't go 
down that path. So Mr. Lovell, in the Department's feedback 
letter to my State of Oregon, the Department noted that 
Oregon's plan proposed to include in the students with 
disabilities subgroup, students who had previously been 
identified as students with disabilities, but have exited that 
status recently. The Department said Oregon cannot use that 
flexibility even though it was permitted in the accountability 
regulations that were finalized when they were writing their 
plan.
    So can you describe other instances where a State has 
actually lost flexibility because of Congress's action to block 
important implementing regulations?
    Mr. Lovell. Sure. So one area where we lost flexibility is 
in the ability of States to provide credit to their schools 
where kids are performing above proficiency. So we would like 
to be able to really prioritize higher thinking skills and one 
way that you could that is by providing credit for students 
that are performing above proficiency. The law very 
specifically says that kids should be--that the academic 
achievement indicator needs to measure proficiency.
    So it is questionable as to whether you can actually 
provide credit for students that are performing above 
proficient. As a result, you have some States, one in 
particular that I could think of, where they are not measuring 
proficiency at all, which is also not consistent with the law.
    Ms. Bonamici. Right.
    Mr. Lovell. So I totally agree with you, the removal of the 
regulation on top of a new template less than 30 days before 
the applications were due did cause a decent amount of 
confusion. And I think that had the regulation been in place, 
we wouldn't see some of the inconsistences that we are seeing.
    Ms. Bonamici. Thank you. And I also want to follow up, we 
have heard a lot of talk about the importance of stakeholder 
engagement and that was a really critical component of the 
Every Student Succeeds Act. And, Mr. Lovell, the Department's 
revised template does not include explicit questions about 
stakeholder engagement, as well as other important requirements 
of ESSA, including provisions related to homeless and foster 
youth.
    And I know you have reviewed the State plans. And how has 
the Department's decision to exclude those statutory 
requirements affected the development of State plans? And based 
on your review of State plans, are States actually meeting 
these requirements of the Every Student Succeeds Act?
    Mr. Lovell. So thank you very much for that question. You 
know, if it is not written, you don't whether it is happening 
or not. And so I agree that especially around some of our most 
vulnerable kids, our homeless students, and our kids in foster 
care, not having specific questions for those students means 
that we don't know what is going to be happening. That said, 
just because it is not in the template doesn't mean that those 
requirements don't exist.
    Ms. Bonamici. Right.
    Mr. Lovell. So it is very important that we still carry out 
and oversee the implementation of those provisions even if the 
questions were not asked in the template.
    Ms. Bonamici. Thank you. More need for certainty and, Madam 
Chairwoman, as I yield back, I want to take just a moment to 
acknowledge my senior legislative assistant, Adrian Anderson, 
who has worked with me for several years on this committee on 
the Every Student Succeeds Act especially. And he is leaving at 
the end of the month to go to law school and I just want to 
thank him.
    Chairwoman Foxx. Thank you, Ms. Bonamici.
    Mr. Barletta, you are recognized for 5 minutes.
    Mr. Barletta. Thank you. Dr. Pletnick, thank you for your 
testimony and for being here today. There are studies showing 
that poor attendance can impact academic achievement, 
ultimately leading to lower reading and math scores. We know 
that chronic absenteeism negatively affects students' success 
and this has led to some States to propose absenteeism as an 
additional accountability measure in their ESSA plans.
    We also know there is evidence that quality afterschool and 
summer learning programs are cost-effective strategies in 
increasing student attendance at all grade levels. I have seen 
this firsthand through an afterschool organization in my 
district, the SHINE Program.
    SHINE focuses on project-based learning with an emphasis on 
a STEM curriculum. It gets kids excited about learning again. 
And it is proven to work. Ninety-two percent of SHINE students 
had exceptionally good or satisfactory school attendance. 
Ninety-seven percent of students indicated they were excited 
about STEM and the numbers of students who said they would like 
to study math or science in college increased by 14 percent.
    The numbers speak for themselves. When students are excited 
about learning, they show up for class and feel personally 
invested in their education, setting themselves up for success 
down the road. Can you speak to how State ESSA plans may be 
encouraging school districts to leverage title I and title IV 
funds to provide afterschool and summer learning opportunities 
to their students, and how can districts partner with 
community-based organizations to address problems like chronic 
absenteeism?
    Ms. Pletnick. Thank you for that question. And in fact, in 
Arizona, that was one of the indicators that we wanted to 
include because we do see some of those same results that you 
have. And I can speak to my own district, but also neighboring 
districts, with our underserved populations especially, having 
those afterschool opportunities serve many purposes, but 
certainly engage students in their learning. And we, too, have 
opportunities to have coding, to have STEM, those really 
critical skills that students enjoy being a part of.
    What we have also seen is through those programs we have 
increased parent involvement because they are able to engage 
with their students in those activities. So truly by using our 
funding, title I, title IV, those types of programs we believe 
are having a positive impact academically on our underserved 
populations.
    Mr. Barletta. Thank you. I yield back the balance of my 
time, Madam Chair. Thank you.
    Chairwoman Foxx. Thank you, Mr. Barletta.
    Mr. Takano, you are recognized for 5 minutes.
    Mr. Takano. Thank you, Madam Chair.
    Ms. Pletnick, well, first of all, congratulations on being 
named president-elect of the AASA. Given the fact that you must 
be familiar with that organization's position on the ESSA 
regulations rolled back under the CRA in February, I was hoping 
you would be able to explain the reversal of AASA's position.
    When the final regulations regarding accountability were 
released, your organization endorsed them, recognizing that 
your three major concerns were addressed. Then in February, 
when they were up for discussion and rollback, your 
organization supported the CRA. What changed between November 
and February and why this dramatic turnaround?
    Ms. Pletnick. Again, as an organization we truly support 
what is in the best interest of all of our schools. And 
certainly, when the regulations--I had an opportunity, in fact, 
to testify in front of a Senate committee about those 
regulations.
    And again, although there were some changes that were made 
in terms of those, we did not feel that, indeed, as a package 
there weren't some issues or concerns with those. So I think 
AASA's position was about making certain that we have the most 
flexibility and autonomy as we move forward in order to 
implement ESSA in terms of the spirit of the law.
    Mr. Takano. But, Ms. Pletnick, I still don't understand why 
the change. I mean, you have spoken in very general terms. What 
explains this reversal of position? You supported the 
regulations when they were first promulgated and then suddenly 
your organization turns around, does a reversal. They support 
the Congressional Review Act overturning those regulations.
    I mean, in my mind, the regulations allowed for the 
implementation of ESSA. What is your--I mean, I don't have a 
sense of you explaining the one. Will you give an adequate 
explanation?
    Ms. Pletnick. I apologize for not being clear. Again, I am 
speaking in broader terms in terms of when you look at ----
    Mr. Takano. Is there one specific, one or two specifics you 
can name?
    Ms. Pletnick. Again, I would ask that I be allowed to 
provide that opportunity for the record going back to AASA ----
    Mr. Takano. Okay.
    Ms. Pletnick.--in order to provide that.
    Mr. Takano. That is fine. That is fine. I would love to 
hear those specifics, read those specifics. Between both the 
President's budget proposal and the fiscal year 2018 House 
Labor Bill, more than $2 billion in funding for title II-A of 
ESEA, the largest Federal funding stream directly supporting 
teachers and school leaders in 90 percent of school districts 
will be completely eliminated, completely eliminated. In your 
role as superintendent and now being president-elect for AASA, 
how would the elimination of title II-A funding nationwide 
affect your abilities to support teachers and implement ESSA?
    Ms. Pletnick. I would share that the most critical resource 
that we have in our schools are our human resources and that is 
especially true of our teachers who touch our students every 
day. So not having that funding in order to support the 
professional development that would allow them to continue to 
ensure that we have the strategies needed to serve our 
underserved populations as well as all.
    Also monies are used in our districts to reduce class size. 
So again, an increase in class size would be an issue if title 
II was eliminated. And certainly, what we would find is that it 
would be very difficult for schools to continue programs like 
peer mentoring, other things that title II provides 
opportunities for us to do without that funding.
    Mr. Takano. So is it fair to say that your organization 
would strongly support restoration of this funding?
    Ms. Pletnick. Yes.
    Mr. Takano. Thank you. I yield back, Madam Chair.
    Chairwoman Foxx. Thank you, Mr. Takano.
    Mr. Allen, you are recognized for 5 minutes.
    Mr. Allen. Thank you, Chairwoman Foxx, and thank you for 
being here with us today. You know, ESSA was a significant 
bipartisan achievement that we initiated to empower State and 
local education decision-making while attempting to restrain 
some of the authority of the Secretary of Education, 
particularly at the local level.
    Since the law has been enacted, my State of Georgia has 
been diligent working with over 140 stakeholders to create a 
State plan. Of course, we call this the bottom-up approach 
rather than the Federal top-down approach. Georgia has gone to 
great lengths to maximize the flexibility provided by ESSA to 
support its vision of offering a holistic education to each and 
every child in the State.
    Of course, I support this vision and our State's commitment 
to engaging Georgians in this plan development. Of course, I 
look forward to working with the Department and its 
interpretation of ESSA does not exceed the intent and limits of 
the law. Our goal here is to achieve every child succeeds.
    So Dr. Wright, have you been encountering some of the same 
problems that Georgia has as far as, you know, bringing 
stakeholders together and then submitting the plan to the 
Federal Department of Education and getting pushback?
    Ms. Wright. We have not yet submitted our plan. We are 
going to be submitting in September, but we have had absolutely 
no problem gathering stakeholders. There is a lot of people out 
there that want to have their voice heard around what they 
consider most important for our children. And so that has been 
a very exciting and invigorating process actually meeting all 
across the State with our stakeholders.
    Mr. Allen. We have experienced that in Georgia as well, 
which, like you said, is a very good thing.
    Ms. Pletnick, what has your experience been as far as 
working with the Department of Education, the Federal 
Department of Education?
    Ms. Pletnick. In terms of the Federal Department ----
    Mr. Allen. Trying to get a plan approved. Where are you in 
that process and ----
    Ms. Pletnick. So Arizona has submitted their plan, so it 
would be for that submission date of September 2017. We have 
not yet received feedback on the plan.
    Mr. Allen. You have not? Okay. Do you see as far as what 
you are trying to implement, is there any lack of 
interpretation of exactly what you think the law that we passed 
says versus what you are trying to accomplish?
    Ms. Pletnick. I think the Arizona plan reflects the ESSA 
law and so we feel confident in our ability then to have that 
approved and move forward on the implementation.
    Mr. Allen. Okay. Ms. Wright, Dr. Wright, do you, I mean, do 
you feel like what you are trying to do reflects the law that 
we passed in every respect?
    Ms. Wright. Absolutely. We have had no difficulty 
whatsoever with working within the guardrails that are provided 
and with as much input as we have had, as I said, we have had 
over 7,000 pieces of feedback. I meet with the superintendents 
on a monthly basis, my advisory committee, my teacher advisory 
committee, the principal's advisory committee, we are meeting 
with those folks on a regular basis to get their input.
    But when we come together then to start the formation of 
the plan, we have not had any difficulty whatsoever in abiding 
by the guardrails.
    Mr. Allen. Well, that is great to hear because it is really 
exciting to see the efforts that are being put forth by the 
States to make sure that every student succeeds. And I want to 
thank you and congratulate you on what you are doing and I 
yield back.
    Chairwoman Foxx. Thank you, Mr. Allen.
    Ms. Davis, you are recognized for 5 minutes.
    Ms. Davis. Thank you, Madam Chair, and thank you to all of 
you for being with us today. You know, one of the things that I 
have been thinking about sitting here that has not been 
addressed so much is just the capacity right now of the 
Department of Education to work with States, to work with 
districts in looking at all of these plans.
    And, you know, so I really inquired about the number of 
vacancies. And when you look at that, 12 out of 15 nominees 
have not even been put forward or 70 percent of senior staff is 
vacant. Just thinking about which ones those are, the deputy 
secretary, there has been no nominee put forward for the 
assistant secretary for civil rights.
    We have an acting person who has been quite under fire, as 
you probably know. There is no nominee for the assistant 
secretary for elementary and secondary education, no nominee 
for the assistant secretary for planning, evaluation, and 
policy development. No nomination for the Assistant Secretary 
for Special Education and Rehabilitative Services. No nominee 
for the assistant secretary for career, technical, and adult 
education, and we have talked about that in the capacity of 
districts.
    Ms. Nowicki, as the GAO representative here, how does that 
capacity affect the ability of States to move forward?
    Ms. Nowicki. Yes, ma'am. I think, you know, to the degree 
that there is no political leadership in place in any Federal 
agency, I think that does, you know, certainly play a role in 
the ability of the very talented and dedicated civil servants 
in any Federal agency. I think you are respectfully trying to 
not get out in front of, you know, where an administration may 
wish to go.
    Ms. Davis. Yeah, I think so because, as you said, they are 
dedicated, but when you are in limbo, when you are waiting for 
leadership and direction, that is a difficult thing to do. I 
don't know, Mr. Lovell, do you want to comment on that as well? 
How much of a problem is it? Maybe it is not a problem.
    Mr. Lovell. Sure. No, I think that is definitely a problem. 
When you combine lack of staff capacity with lack of clarity as 
a result of the rescission of the regulation, it really puts a 
lot of pressure on the career staff to go through these 
hundreds and hundreds of pages of material. It is complex. It 
is dense. I think that there are certainly areas that warrant 
clarification, such as when a State submits a plan and the 
question in the template requires a State to define the term 
``consistently underperforming students.''
    And then when a State responds by saying we will identify 
low-performing students, what does that mean? Without the 
regulation in place you don't have a whole lot of guidance to 
determine what that means or what that doesn't mean, if it is 
consistent with the law or if it is not.
    So the Department's feedback basically now is serving as 
that guidance and States have to--are looking at that really 
closely to see, well, what rules do I have to follow?
    Ms. Davis. Sure, yeah. And I think you mentioned earlier 
that when it comes to some of those regulations, looking at 
whether career and tech, you mentioned that. We also talked 
earlier about the consistency about higher level thinking 
skills and where that is placed as well. In addition to that 
issue, of course, we have the budget issues that have been 
discussed. And I am wondering what the impact of deeper cuts to 
education will have on the ability of States to really serve 
our most vulnerable students.
    And one of those areas we have included a requirement in 
ESSA for 95 percent of all students in each subgroup to 
participate in annual assessment to ensure that low-performing 
students are not encouraged to be absent on test day. One 
particular example, and if we are disaggregating data, that is 
going to be a very important effort that moves forward for all 
students.
    How are States implementing this policy and how is the 
Department of Education going to oversee that given the 
situation they have?
    Mr. Lovell. So you have raised two issues, one around 
funding and one around the 95 percent test participation 
requirement, and let me address those both. So on the funding I 
want to go back to actually a comment raised by Mr. Barletta. 
He asked about how States were being able to leverage title I 
and title IV dollars for afterschool programs.
    Specifically, with regard to title IV it is pretty hard to 
leverage something that doesn't exist. Title IV has been so 
woefully underfunded that it is questionable how those dollars 
are going to be able to be used. Authorized level was $1.6 
billion. Last year $400 million was provided. That is less than 
a third of the authorized amount. So being able to use those 
dollars for things like afterschool programs is a real problem.
    The 95 percent participation rate is also a real problem. 
One place where the Department has not been inconsistent is in 
consistently not mentioning the 95 percent test participation 
requirement. There are a number of States that either simply 
say we are not going to abide by this part of the law or have 
too little, very little of an explanation as to how they are 
going to, and mum has been the word on the 95 percent test 
participation requirement.
    Ms. Davis. Any other comments that you all would like to 
make to those questions? I know we don't have any time left 
hardly.
    I think, you know, this is really an important hearing and 
I think when we look back a few years from now to sort of see 
how did it go, how was it implemented, I think what you have 
provided today, all of you, has been helpful. Thank you very 
much.
    Chairwoman Foxx. Thank you, Ms. Davis.
    Mr. Mitchell, you are recognized for 5 minutes.
    Mr. Mitchell. Thank you, Madam Chair. Upon the passage of 
ESSA, the Wall Street Journal noted, and this is a quote that, 
``It represented the largest devolution of Federal control to 
the States in a quarter century.'' Unfortunately, the previous 
administration apparently did not endorse that bipartisan bill.
    In fact, the previous chair and the chair in the Senate 
submitted a letter to the Secretary, 30 pages of concerns and 
objections to the proposed regulations that, frankly, were 
largely ignored. The minority here wishes to relitigate the 
discussion regarding the CRA and the elimination of the rules 
that were put forth by the previous administration.
    Let me give you some areas of concerns. The 95 percent that 
you referenced, however, the final rule referenced only four 
options and requires schools to implement a plan to address 
those. There is a whole series of things the Department did 
that overreached the intent of this Congress or the previous 
Congress and this committee.
    I wasn't here at the time, but, frankly, voted in favor of 
the CRA because I am offended by the fact that a bill is put 
forward by this House and Senate that the administration 
decided it didn't meet their expectations to do as they wanted. 
That is not the way this government works.
    So rather than spend quality time, frankly, whining about 
the CRA, we ought to get on and talk about the effect of the 
address of the needs of students of education.
    Question for you, Dr. Wright, if you could, please? Could 
you describe some of the means by which you attained what you 
consider to be quality stakeholder engagement?
    Ms. Wright. We scheduled meetings around the State and we 
scheduled them at two different times. We scheduled a total of 
15 initially, but that does not count all the other specific 
stakeholder groups that we met with. These were regional 
meetings. We scheduled our first one typically in the 
afternoon, somewhere around 3:00, so that those people that 
were available could be there.
    But we scheduled the second one in that same area typically 
starting at 6 or 6:30, so that we could ensure that our parents 
that were working would have an opportunity to get there after 
they got off work. So we made sure that we tried to cover all 
areas of the State and also in reaching out, our ESSA advisory 
group is one that has a diverse group of individuals on it.
    We met with them on a regular basis. As I have mentioned to 
you before, I have got a superintendents advisory committee 
that I meet with on a monthly basis. I meet with my teachers 
every other month. And so it gave us an opportunity to really 
hear from a lot of people.
    Mr. Mitchell. Thank you. Dr. Pletnick, as well, most 
important stakeholders, we call them stakeholders here, they 
are parents. Let us be honest about it. What did you do to make 
sure that we got effective parental engagement in this process? 
They felt that they were heard?
    Ms. Pletnick. In Arizona, there were a number of committees 
and subgroups that were established and they would have 
representatives from all stakeholders group. So certainly our 
parents are important, our business partners are important. All 
of those people were represented on the various committees. And 
in addition, we did have a survey and anyone could provide 
feedback, for instance, on our measures of success, those 
indicators that we were including.
    There were also, again, meetings that were held across the 
State, a number of meetings, where people could come and 
engage, ask questions, get clarification, and provide feedback.
    Mr. Mitchell. What percentage of your parents responded to 
the survey approximately?
    Ms. Pletnick. I honestly do not have those numbers with me, 
but I know it was open and there was good participation in it. 
I do not have exact numbers.
    Mr. Mitchell. Well, I am sure it is open. I wasn't 
questioning that. My concern is that we do everything we can to 
maximize the engagement of parents in how this is structured 
and engage them in the educational process so they have every 
reason to participate with their children. So that is critical 
and I would ask, Ms. Nowicki, if we could make sure as we look 
at, I know you have nothing to do with the operation, but going 
forward in terms of the effectiveness, that we look at the 
effectiveness of engaging not only stakeholders, teacher 
groups, those types of things, but parents in the process 
prospectively and after it is underway. Can we assure that is 
going to happen?
    Ms. Nowicki. We would be happy to work with the committee 
on any requests that they wish to submit having us look at 
stakeholder and parent involvement, absolutely.
    Mr. Mitchell. Madam Chair, I would ask that we at least 
consider that as we go forward in assessing the effectiveness 
of ESSA, that we ensure parental--look at the effectiveness of 
engagement.
    Chairwoman Foxx. Thank you, Mr. Mitchell.
    Mr. Mitchell. Last question for you if we could, I guess is 
that it would be about the last stage of ESSA is identify and 
assist school districts that are low performers. Michigan has 
some legendary low-performing school districts, unfortunately. 
A variety of things have been done to try to address that.
    My question for you would be, also, Ms. Nowicki, is there a 
process by which you are going to assess the effectiveness? 
Have you identified, one, whether the plans are effective at 
addressing low-performing school districts?
    Ms. Nowicki. Yes, sir. I think when we have an opportunity 
to see the monitoring protocols that the Department eventually 
develops, that is one of the things that we would be interested 
in looking at how they are approaching that.
    Mr. Mitchell. I would be curious if the other two 
educational witnesses, Dr. Pletnick and Dr. Wright, if we get 
any feedback just of how you are going to monitor that because 
it seems to be a plaguing problem in some States. Clearly it is 
in Michigan, and we need to not only talk about what we are--
how we are assessing them, but how we are supporting them and 
are we getting improvements or are we just spinning our wheels 
and students are being lost?
    Ms. Wright. Well, actually, it is one of the goals in our 
strategic plan that all schools and all districts will be rated 
C or higher. And so our focus to do that, we have an A through 
F system, was to identify the lowest performing schools. We are 
going to be using subgroup data to do that.
    We have also got a protocol in place that we have required 
all of our low-performing schools to come in for a personal 
interview, which includes their board members, their 
principals, et cetera. And then go through the protocol with 
them about what we are going to be monitoring and how 
frequently.
    The bottom line for me as the State superintendent is, are 
student outcomes improving?
    Mr. Mitchell. That is right.
    Ms. Wright. And that is where we are coming from.
    Mr. Mitchell. Thank you and I yield back. Thank you for 
your patience.
    Chairwoman Foxx. Thank you, Mr. Mitchell.
    Dr. Pletnick, if you could respond to Mr. Mitchell in 
writing, I would appreciate it.
    Mr. Grijalva, you are recognized for 5 minutes.
    Mr. Grijalva. Thank you, Madam Chair. Dr. Pletnick, 
welcome, and I am glad you are here. I want to talk--ask some 
questions about some mitigating factors in terms of how the 
State plan is approved, when it is approved and the 
implementation of ESSA in Arizona in the public school 
districts.
    Mitigating plans points being, you know, Arizona, along 
with Mississippi, are at the five lowest States in terms of per 
people expenditures to the public schools; Arizona is about 
$3,300 under the national average. So that lack of State 
support in terms of public instruction is a constant in 
Arizona.
    It has been litigated. It has been referendumed. It 
continues to happen yearly at the State level. But now let me 
ask, so that is a constant. And you couple that with the cuts 
that are being proposed in the education budget and that is an 
additional layer of lack of support upon the public schools in 
Arizona and across the country.
    But then you have also the threat of public funds going to 
private school vouchers, for-profit charter schools; they are 
very real now given President Trump and Secretary Devos' 
singular focus on that concept. Under the repealed regulation 
charter schools are going to be held accountable through an 
authorizer's reporting. Now, without that regulation that has 
been repealed, they will be even less accountable because of 
that.
    And the proliferation of for-profit charter schools in 
Arizona, charter schools in general, don't you think that 
regulatory requirement would help to improve the transparency 
of the State's charter sector, Doctor?
    Ms. Pletnick. So what I would say is I truly do believe in 
accountability. So I do believe if any school system receives 
Federal or State funding that they should be held to the same 
accountability as every other because I think that is about 
transparency.
    Mr. Grijalva. And, you know, I also mentioned the 
Affordable Care Act, $26 million goes to the State of Arizona 
for Medicaid to work with children with disabilities. That is 
$26 million that if the repeal scenario is what we are talking 
about now, then that would be, again, another layer of 
nonsupport that would not be there particularly for disabled 
kids.
    During the discussion, I am assuming that the discussion of 
a national voucher tax credit proposal, probably using a tax 
reform vehicle probably, that is modeled after State programs 
like the one we have in Arizona, do you feel that Arizona's 
voucher program is indeed helping students? And would you 
recommend as a national policy that we model a national policy 
after Arizona's voucher program?
    Ms. Pletnick. I am here at the invitation of Chairperson 
Foxx to speak on ESSA implementation. And so I am not as 
prepared for this hearing to speak to that. Certainly, I could 
provide additional information regarding it, but there is 
certainly an impact when we have expansion of those programs. 
And we know that at the State level.
    Mr. Grijalva. And if it is public money that is being 
diverted to those programs, as a consequence it is less another 
layer of nonsupport from the public schools in Arizona.
    Ms. Pletnick. There is an impact on it.
    Mr. Grijalva. So we have those mitigating factors. Where is 
the State plan at this point? Waiting for review? What is the 
story on that?
    Ms. Pletnick. Yes. It was submitted so that it was 
submitted I believe in May, which would make it for that 
deadline in September for review.
    Mr. Grijalva. And you heard the complaints, I am sure. Many 
parents, stakeholders, educational groups relative to the fact 
that the access and the lack of real dialogue in terms of what 
that plan was going to be that was, I think, essentially run 
out of the governor's office, that there was some opposition 
and discomfort with the way the plan was put together, correct?
    Ms. Pletnick. So again, I think that there are components 
in the plan, as I had shared. I do not think that it is a 
perfect plan. So I believe there needs to be continued dialogue 
as we look at what we need to do to continue to drive 
improvement, especially for our underserved populations in 
Arizona.
    Mr. Grijalva. And thank you very much. I appreciate that. 
But without resources, asking public school systems to meet any 
benchmark and we see eroding support at the State level, at the 
national level, and at all levels for our public schools, I 
think you are putting not only the school system in a bad 
place. You are putting parents in a bad place and you are 
jeopardizing a lot of children. And with that, I yield back.
    Chairwoman Foxx. Thank you, Mr. Grijalva.
    Mr. Smucker, you are recognized for 5 minutes.
    Mr. Smucker. Thank you, Madam Chairwoman.
    Dr. Wright, in your testimony you mention the opportunities 
to expand career and technical education to the classrooms of 
our elementary and secondary students. And I know there has 
been some discussion about this. I apologize if it is a 
duplicate question.
    But, you know, it is a top priority of this committee and a 
top priority of mine as well. Pennsylvania is working on 
developing their own State plan in response to ESSA and just 
wonder what ideas you may have for Pennsylvania and other 
States to integrate career and technical education into those 
plans.
    Ms. Wright. Well, that is one thing that we have been very 
proud of is working with our businesses around the State. We 
serve on the State's Workforce Investment Board and I think 
having a seat at the table, I think, has a very powerful 
reality for us. We then separate the State into the local 
workforce boards and have been working directly with them.
    They have been very receptive to our work. We are intending 
to create, as I said earlier, those CTE plans in high school, 
but we are also looking to see how early we can start some of 
these plans in middle school because I think some of our 
children, we realize that not everybody wants to go to college.
    But everybody deserves the right to have a wonderful job as 
soon as they, you know, walk across our stage. And so our job 
is to ensure that all of our children are career and college 
ready. We are also redoing our diploma options, to be honest 
with you. We have got one that is going to have a CTE 
endorsement and that is going to be a nationally recognized 
endorsement that children will be able to go right to work if 
that is what they so choose.
    But I think the key for us is the developing in our economy 
and that the way to do that is to ensure that we have got a 
strong workforce out there that can do that. And the children 
that are in our classrooms are the ones that are going--we are 
going to be depending on. So we have got to ensure that they 
have got the academic skills to do that, but they also have to 
have the career and technical skills to do that as well.
    Mr. Smucker. You mentioned a national endorsement? What is 
that?
    Ms. Wright. Yeah. We are looking at the number of national 
endorsements that students can have, certifications that they 
can have. We have got a large number of different manufacturing 
companies. Toyota has a big presence. Nissan has a big 
presence. Ingalls Shipbuilding has a presence. The Stennis 
Space Center has a big presence.
    So we have got a huge medical area as well, as well as some 
of the smaller businesses that are looking for people to come 
to their employment. As I said earlier, about 65 percent of the 
jobs that are available are children that are going to need 
middle schools.
    Mr. Smucker. So that certification or endorsement would be 
part of their diploma as well?
    Ms. Wright. Yes.
    Mr. Smucker. Okay.
    Ms. Wright. Yes, sir.
    Mr. Smucker. Interesting idea. Next question. This would be 
for both Dr. Wright and Dr. Pletnick. Yesterday I had the honor 
of welcoming Chairwoman Foxx to my district and we had a 
roundtable discussion with education leaders from across the 
district and industry stakeholders as well. And a topic came up 
that I have heard a lot about in the State senate in my State, 
and chair of the education committee.
    I am just curious what your States are doing in regards to 
standardized testing. Superintendents who were there and who 
have heard from the past few years have felt that there has 
been sort of an undue or too much emphasis, I guess, on having 
all students achieve a certain standard as opposed to, I think 
today we have technology or we have education available to 
provide more individualized learning to meet a student exactly 
where they are, and help all students achieve to their full 
potential.
    So I guess I am curious how both of your States are 
responding to that?
    Ms. Wright. Well, in Mississippi, we have established and 
adopted a set of very rigorous standards pre-K through grade 
12. And I think we owe it to our parents and our community to 
be very transparent about what our children should know and be 
able to do by the time they leave 12th grade. It is going to be 
they depend on us each and every day to ensure that their 
children are getting what they deserve.
    And so I feel very strongly that you have got to have a 
strong set of standards in place that are going to enable 
children to be successful when they leave us. And so that is 
how--that is the approach that we have and that is the approach 
that we are sticking to.
    Mr. Smucker. Dr. Pletnick, could you respond?
    Ms. Pletnick. So in Arizona, we do have what is called the 
Arizona Merit and that is aligned to our standards. Our 
standards, too, are very rigorous, but as a superintendent, I 
also believe that there are many other skills and dispositions 
that we have to ensure students have before they leave us if 
they are to be future ready.
    I think about the fact that I really didn't have to think 
about coding when I was in elementary, yet that is a skill that 
is a future-ready skill. When we talk about the four Cs, 
communication and critical thinking, all of those things, so I 
think there have to be multiple measures and that is what we 
have worked towards in Arizona in terms of our CC&R indicators.
    So one test can give us some feedback, but we need multiple 
indicators to get the true picture of student success and 
school success.
    Mr. Smucker. Thank you.
    Chairwoman Foxx. Thank you, Mr. Smucker.
    Ms. Blunt Rochester, you are recognized for 5 minutes.
    Ms. Blunt Rochester. Thank you, Madam Chairwoman and also 
Ranking Member Scott, and also thank you to the panel. I was 
really pleased to hear that our chairwoman has invited 
Secretary Devos to our committee. Education and ESSA 
implementation is probably one of the things that I have heard 
most from Delawareans, whether it is the champions in civil 
rights that I talk to, those people who are interested in 
lifting people out of poverty, to the corporations in my State 
which we have many, and all of the small businesses.
    This is probably one of the top issues. And so my question, 
I first want to start with Ms. Pletnick. You stated in your 
testimony that, ``Consistency in how ESSA is interpreted and 
regulated is critical. Uncertainty created by shifting 
interpretations of the ESSA law continues to be a concern.''
    Given that there is currently no regulatory scheme for ESSA 
interpretation, what position do you think that this puts 
States in developing and implementing their plans?
    Ms. Pletnick. So I believe in whether we are talking at the 
Federal level, we are talking at the State level, again, it is 
important to have that consistent feedback because then, in 
turn, we can move on with the implementation of ESSA, and make 
certain that we are directing all our efforts to that 
implementation, and checking those outcomes.
    So it is critical as we move forward that we make certain 
that we know exactly what our targets are, that we can get to 
work, and get the work done. So my concern is really about 
consistency across the board at all levels.
    Ms. Blunt Rochester. Across the board. I want to follow 
that up and, Mr. Lovell, if you could also join in. What impact 
would the lack of regulation have on underserved populations?
    Mr. Lovell. That is a monumentally important question. The 
concern is that the lack of the regulation will result in too 
few children being identified and then receiving the support 
that they need to succeed. We want to make sure that States, 
when they are proposing to identify students for additional 
support, that while we want to use all the indicators in the 
system to support them, we don't want them to make--we want to 
make sure that kids don't have to fail on everything before 
they are actually identified.
    I think that is a major concern considering that a few 
States have been very clear that they want to look at are kids 
performing on grade level, and if they are not, then let us do 
something about that. The Department has pushed back on that a 
little bit and that is very unfortunate because, frankly, if 
students are not performing at grade level, or if they are not 
graduating, I don't need to know much else to know that 
something needs to happen.
    I need to know a lot more to know what to do about it, but 
I don't need to know a lot more to know that there is a 
problem. And then back to your, again, question around the 
regulations.
    That, you know, the role of the regulation is to provide a 
lot of clarification and there was a comment earlier around the 
95 percent requirement and whether the regulation is being 
overly prescriptive. Four options were presented.
    One of those options in the regulation around the 95 
percent was essentially States choose your own adventure. Come 
up with your own option. So to say that it was only four 
options is actually not entirely the case.
    And as a result, we have States when it comes to how are 
they going to be implementing this very important provision of 
the law, either not being clear about it or not doing it at 
all.
    Ms. Blunt Rochester. You know, I really want to touch a 
little bit on both regulation and also on capacity. We were 
talking about undersecretaries and the positions not being 
filled. I had the opportunity in Delaware to serve as a deputy 
secretary of health and social services.
    And while I--I was also secretary of labor, and secretaries 
do have an important role. They are external. They are 
visionary and all of that. But a lot of the detail gets done at 
that undersecretary level. A lot of the administrative things, 
a lot of the--there is so much importance also to that level.
    And so my concern about filling positions is I share Ms. 
Davis' concern. Also about regulations, I guess, having come 
from State government, I believe there is a place for 
regulations. Can we overregulate things? Yes. But there is a 
real place and I think what we are hearing from all of your 
testimony across the board is consistency, clarity--that helps 
people to be able to do their jobs better. It helps us to be 
able to get better outcomes.
    So I have no more questions. I am just going to yield the 
balance of my time.
    Chairwoman Foxx. Thank you very much, Ms. Blunt Rochester.
    Mr. Grothman, you are recognized for 5 minutes.
    Mr. Grothman. Thank you. I guess I will ask a question to 
either Dr. Pletnick or Dr. Wright, who is best able to answer 
it. Could you first of all just give us a general overview? I 
mean, we wanted to get around, we passed Student Success Act, 
get around this top-down approach to how you run your schools. 
Do you feel we have succeeded in that? Are you happy with that 
or would you like further things done alone those lines? We 
will start with Dr. Pletnick.
    Ms. Pletnick. As I had shared earlier, I think there are 
still some things even at our State level that were legislation 
that was tied more closely to the No Child Left Behind era than 
to what currently is in place with ESSA law.
    So I think there is still room for improvement and we need 
to work on that. Teacher evaluation is an example of that, some 
other pieces. So, yes, ESSA has provided us with some of that 
autonomy and flexibility, but at the State level, I think we 
still have some things that we will need to do.
    Mr. Grothman. Okay. Are you satisfied with what you are 
getting out of Washington, though?
    Ms. Pletnick. Yes. Again, I will tell you that we have 
submitted our plan. We have not gotten any feedback on that 
plan at this point.
    Mr. Grothman. Okay. Same question for you, Dr. Wright.
    Ms. Wright. Yeah, I think the State's role, at least in 
Mississippi, is, you know, setting the long-term goals per 
subgroup area so that we know what we want for our children 10 
years out. But I think it is really the local districts and the 
local schools that need to be developing their own respective 
plans on how they meet the needs of their individual children.
    I wouldn't presume to know. I have got 144 districts, all 
the needs of that, so I trust my superintendents and the 
principals and the teachers of that school.
    Mr. Grothman. You are satisfied with the Student Success 
Act, though?
    Ms. Wright. Yes.
    Mr. Grothman. And we say we were pushing things out.
    Ms. Wright. Yes, I am, very much so.
    Mr. Grothman. You were saying so. Okay. A little while ago, 
you kind of were talking very positively about kind of more 
preschool. Have you ever read anything indicating the preschool 
is not necessarily much of a benefit?
    Ms. Wright. No, quite to the contrary. Preschool, there is 
too much research out there now for us to not be paying 
attention to our three- and four-year-olds. Quite honestly, we 
are going to be starting to look to how can we start helping 
children, you know, birth through grade three. I think that has 
been one of the things that we have been pushing out across our 
district is the amount of research that is being conducted 
recently and the long-term effects, even in Mississippi, that 
we can verify by research that has been done by Mississippi 
State on Mississippi children.
    Mr. Grothman. Okay. You have never read anything to the 
contrary to that? Never read anything ----
    Ms. Wright. Long time ago, but not within the past I would 
say 5 years. Not to my knowledge.
    Mr. Grothman. Okay. Next question. One of the metrics that 
is supposed to show a quality school--well, I will go to this 
one. What is an underserved population? Mr. Lovell just used 
that as a phrase, but could anybody describe what you consider 
an underserved population?
    Mr. Lovell. Well, the law stipulates that States are 
supposed to disaggregate data for accountability and reporting 
purposes for major racial and ethnic groups, for English 
learners, for low-income students, and for students with 
disabilities. So those are the categories of students that, 
generally speaking, when we speak to underserved populations 
that we are referring to.
    Mr. Grothman. Does underserved mean lack of money? Does it 
just mean poor outcomes? Is ----
    Mr. Lovell. Well, it also refers really to both when you 
look at schools that predominantly serve those populations of 
students specifically ----
    Mr. Grothman. Sometimes in Wisconsin, some of the most 
underperforming districts have the most money and that is why I 
wondered what you meant by underserved.
    Mr. Lovell. Well, so I think that we would present data 
that would suggest otherwise.
    Mr. Grothman. Nationwide or ----
    Mr. Lovell. Oh, sure, across the country.
    Mr. Grothman. Okay. Okay. Final question. Sometimes one 
metric used to measure a quality school district is graduation 
rates. I know graduation rates are overall up. On the other 
hand, a lot of times you hear from employers today, people who 
teach in secondary education that they feel the kids aren't 
doing as well or as prepared as they used to be. Could you 
comment, say, Ms. Nowicki, on the contradiction there? Is it 
possible we are lowering the standards on what it takes to 
graduate? Or how can graduation rates be up, but employers and 
people in secondary education sometimes feel the kids 
graduating aren't doing as well?
    Ms. Nowicki. GAO has not done any recent work around 
graduation rates, so I can't comment from that perspective. I 
know that the Department of Education's IG has done some work 
looking at graduation rate statistics and what they mean and 
don't mean in particular States.
    Mr. Lovell. So our organization has looked at this, and 
actually, we are going to be releasing a report in the next few 
weeks because that contradiction definitely exists. And States 
in their ESSA plans have the opportunity to address this by 
including items in their accountability system that prioritize 
not just that you get a diploma, but that you get a diploma 
that really represents that you know something.
    And to your questions earlier around early childhood, while 
I haven't seen anything that shows that early childhood is 
ineffective or isn't necessary, I have read research that shows 
that early childhood on its own is insufficient.
    So in other words, you can't--early childhood is not an 
inoculation. You have to continue to invest and support kids 
throughout their development.
    Mr. Grothman. Yeah, I would hope Dr. Wright would Google 
early childhood education and criticism and she will have no 
problem finding other things. Thanks much.
    Chairwoman Foxx. Thank you, Mr. Grothman.
    Dr. Adams, you are recognized for 5 minutes.
    Ms. Adams. Thank you, Chairwoman Foxx and Ranking Member 
Scott, for convening this hearing, and thank you to those of 
you who testified today. I want to reemphasize one of the main 
points that Mr. Lovell mentioned in his testimony that ESSA is, 
at heart, a civil rights law.
    The Federal Government has an important role to play in 
ensuring equity in education for our children. And while States 
have wide discretion and flexibility to determine how success 
is measured, the Federal Government sets the standard for 
success.
    So it is especially true in historically underprivileged 
groups. So Mr. Lovell, States have the discretion to create and 
define the metric used for consistent underperformers. In your 
analysis of State ESSA plans, how are States defining 
consistently underperforming, and do you think this equity 
guardrail in the law is being executed as intended to ensure 
schools struggling to meet the needs of underserved students 
are identified and supported to improve?
    Mr. Lovell. Thanks very much for your question. I think 
this is one of the most important provisions in the law. If we 
are not identifying kids who are continually underperforming, 
then what are we here for? And if we are not supporting them, 
then we are certainly not doing our jobs.
    A number of States have proposed ways to do this that 
ensure that if you are--if a student is not performing at grade 
level in math or reading, or if there are low graduation rates, 
those children are identified and something will happen as a 
result of it. They will receive some sort of support.
    Unfortunately, a number of States are also putting together 
these sort of indexes where you are including a whole bunch of 
different factors to determine whether a kid is low performing 
or not. And what we are concerned about is that if you are 
performing well in one area, that might mask if you are 
performing less well in another area.
    And so when you combine all these things together, you come 
up with not a whole lot that is actually usable. So we want to 
be sure that States have the flexibility to, as I believe it is 
being proposed in Mississippi, to look at if you are performing 
at grade level in math or reading. If you are not, then you 
should be able to receive targeted support.
    You don't have to--you need to look at each indicator in 
the system, but you don't have to fail on all of them in order 
to receive support.
    Ms. Adams. Thank you.
    Dr. Wright, you mentioned in your testimony that 
Mississippi is including students' subgroup performance in 
identifying schools for support and improvement. And I know 
that your plan is only in draft form, but how is Mississippi 
planning to measure subgroup performance and factor subgroup 
performance into the school's rating?
    Ms. Wright. So we have the data that we collect on our 
statewide assessment that we have just redone grades three 
through eight and then, once again, in high school. Those data 
will be disaggregated by subgroup and then monitored at not 
only at the State level, but at the district level and at the 
school level.
    So we will be able to track that data over time to 
determine whether or not those subgroups of children are 
continuing to underperform or are making progress.
    Ms. Adams. Okay, thank you very much.
    Madam Chair, I yield back.
    Chairwoman Foxx. Thank you.
    Mr. Garrett, you are recognized for 5 minutes.
    Mr. Garrett. Thank you, Madam Chair.
    A wiser man than me said, probably 35 years ago, the nine 
most frightening words in the English language are, ``I am from 
the government and I am here to help.'' I might amend that to 
10 words and submit that I am from the Federal Government and I 
am here to help, pretty frightening in their own right.
    ESEA is a 50-year-old precursor to ESSA and arose during 
the Johnson administration along with the war on poverty. And 
we have seen as Federal dollars spent on local education rose, 
a reverse correlation in the performance of United States 
students versus students across the globe.
    And candidly, from a State where we rank anywhere between 
fourth and sixth as it relates to educational outcomes of the 
50 States on a regular basis, I wonder why we are competing 
against 49 other States as opposed to a world of other nations. 
Because that is the playing field upon which our children will 
ultimately compete.
    It is often said that the road to hell is paved with good 
intentions and I have seen all too often people attack 
aspirants to serve in political capacities based on what 
program they supported or didn't support. If you don't support 
this, you don't care, or if you don't support this, you don't 
like children. If you don't support this, you are not 
interested in finding solutions to poverty and expanding 
opportunity. It is all horse feathers.
    What we need to be focused on as opposed to intentions is 
outcomes, results, what happens. And I will tell you speaking 
with frustration that vents back to 6, 7 years ago, as I was 
serving in the State legislature, where we identify failing 
schools and leave students in these failing schools without an 
option for the parents who lack the socioeconomic and financial 
wherewithal to vote with their feet, we doom those children to 
inferior outcomes and inferior educational opportunity.
    If you ask me whether I believe in nature or nurture, I 
will tell you I believe in nurture every single time and that 
the color of a young person's skin or the job of their parents 
isn't so much a precursor on their success as to what they are 
exposed to. But we run into the institutional educational 
monopoly all the time as we try to create escape hatches for 
students in places, like the five, whopping five, schools that 
we had the courage to identify as failing in Virginia, to find 
a way out for these young people who have just as much 
fundamental entitlement to the single birthright of 
Americanship, and that is opportunity as every other kid.
    I am sick of watching kids fail based on their ZIP Code. 
But Jefferson said wisely, and I will paraphrase, the 
government closest to home is most effective, most accountable, 
and governs best.
    My colleague from Oregon states that she thinks the 
solution to our educational problems has to be at the Federal 
level. And then in the same paragraph lamented that ESSA 
prevented Oregon from including particular standards that she 
felt might help best effect good outcomes for students in 
Oregon. Dr. Pletnick, do smart people work with you?
    Ms. Pletnick. I have very intelligent people working with 
me.
    Mr. Garrett. And they are professional and trained people?
    Ms. Pletnick. Yes, they are.
    Mr. Garrett. And they care, they care about the children 
and the district that you serve?
    Ms. Pletnick. They do.
    Mr. Garrett. And you are the superintendent, correct?
    Ms. Pletnick. I am.
    Mr. Garrett. How many students does your district have?
    Ms. Pletnick. Approximately 25,000.
    Mr. Garrett. And can you name one or two of those kids who 
might have special needs who you are trying to overcome the 
challenges yourself?
    Ms. Pletnick. I could, but I will not confirm ----
    Mr. Garrett. I am not asking you to, but you could. Yeah, 
right, but nobody in this room could, right? You could and you 
care, and you have smart people, and we don't have a monopoly 
on good ideas. And you want what? What is best for the outcomes 
for the students that you serve, is that correct?
    Ms. Pletnick. Absolutely.
    Mr. Garrett. Okay. Ms. Nowicki, you are familiar with the 
United States student ranks versus their global peers as it 
relates to academic performance in ratings like math and 
science? Are you familiar with the historical data?
    Ms. Nowicki. Not specifically.
    Mr. Garrett. Okay. Are you familiar with how we were doing 
say in 1950, 1960, 1970 versus 1990, 2000, 2010 versus our 
global peers?
    Ms. Nowicki. Are you talking about the PISA ratings?
    Mr. Garrett. And surveys of outcomes educationally. I would 
submit by way of brevity, because I have a minute and 9 
seconds, that as we have spent more, we have actually gone down 
versus the competition. Now, I am not arguing against spending 
more. Let me be clear. We need to spend money on education. But 
I got an idea that folks in a county in Arizona and the State 
of Mississippi know better what is needed.
    Dr. Wright, we talked about CTE. Is it good in CTE to align 
the training that we give students with the needs of the job 
providers in the communities?
    Ms. Wright. Absolutely.
    Mr. Garrett. Okay. And who knows better the needs of the 
job providers in Tupelo or Biloxi, the people in Tupelo or 
Biloxi, the people in Jackson, or the people in Washington, 
D.C.?
    Ms. Wright. The people in Tupelo and Biloxi.
    Mr. Garrett. Correct, thank you. I mean, I just am a little 
biased here. And so I guess what I am driving at here is that 
this is great and I think ESSA is a step in the right 
direction. It doesn't have--like anything from Washington, it 
has warts and pimples, but you are good, smart people who give 
a damn, pardon me, about the outcomes for the children in your 
communities. And the way we arrive at the best solutions is by 
letting loose 50 laboratories for democracy and finding out 
what works. And our role, since we have already co-opted so 
much of the resources at the Federal level, should be to power 
those down to States and localities, would you agree, to let 
you all do what you think works best, and then let others fall 
in on the plans that succeed? Thank you. That is rhetorical. I 
am out of time.
    Chairwoman Foxx. The gentleman's time has expired.
    Mr. Garrett. Hey, I was only 12 seconds over, Madam Chair. 
That is a new record.
    Chairwoman Foxx. Mr. DeSaulnier, you are recognized for 5 
minutes.
    Mr. DeSaulnier. Thank you. Thank you, Madam Chair. Thank 
you for having this hearing.
    And, Mr. Lovell, I am always taken when I look at the 
achievement gap by a comment I heard by a Stanford researcher, 
Linda Darling, some years--well, it wasn't that long ago, a few 
years ago, that if we had just continued to do what we knew is 
the right things to invest in 30 years ago for the past 30 
years, we wouldn't have an achievement gap.
    So when we look at the difficulties in people, whether they 
are in Mississippi or in Concord, California, where I am from, 
in achievement gap, could you talk to that a little bit about 
where accountability comes? That, yes, we want local 
jurisdictions to decide, but, on the other hand, there is a 
benefit to this research that applies across all 50 counties 
and the Federal Government affording that to local communities 
so they can be informed on what is happening around the 
country. And why it is important for consistency that there is 
some accountability there .
    Mr. Lovell. Thank you very much for the question. I 
actually think that Chairwoman Foxx said it very well at the 
beginning of this hearing when saying that ESSA provides a 
balance between accountability and autonomy. And the reality is 
that everyone needs to have a role in this and there is a 
Federal role to be played. So ESSA is a civil rights law and 
what ESSA does is provide a broad framework for the 
accountability and ensures that those kids who have the least 
have a shot of success.
    So it also needs, I think, to be well understood that we 
have seen improvements in educational outcomes over the last 
decade. Look at the graduation rates as an example. Back in 
2000, 2001, if you were going to draw a line between the 
graduation rate in 2000 and 2007/8, basically you have got a 
straight line.
    But then in 2008, something happened. The U.S. Department 
of Education under President George W. Bush issued a regulation 
around graduation rate accountability because apples were not 
being compared to apples across States if you compared 
graduation rate calculations. One State was using one 
calculation, another State was using another.
    After the Federal Government issued the regulation in 2008, 
you saw something pretty remarkable happen. Graduation rates 
started increasing. As a result, since 2000, 2.8 million more 
kids have graduated. That is a big deal. It is a big deal for 
them and it is a big deal for the Nation's economy considering 
that by 2020, two-thirds of jobs are going to require at least 
some postsecondary education and a high school diploma is the 
first step to getting there.
    Mr. DeSaulnier. And the second part of my questions are 
coming from the Bay Area and I appreciate the fact that we had 
really robust field hearings that the chairwoman and the 
ranking member were part of, and I was lucky enough to be part 
of those. But particularly, as you will remember, Madam Chair, 
the last part of that field hearing at Stanford University, the 
Harvard of the West Coast, I might add, to the Ranking Member, 
I get this all the time in the Bay Area, is from tech people.
    We have our challenges on housing and transportation. But 
the thing that comes up all the time from employers is we need 
to provide a workforce for global economy that is changing at 
warp speed. So accountability is a big part in the business 
sector. And again, a lot of these companies will move. I don't 
want them to move from the Bay Area, but they are.
    But one of the things that determines where they are moving 
are things like housing costs, but it is also the education 
system. So while it is important, I think, and I very much 
support local control and what Dr. Wright, you have said, there 
are things that in this economy require, I think, the Federal 
Government and the business community to inform us at a local 
level this is what we are looking for, and this is what we have 
to invest in. So I will let any of you respond to that.
    And I think the urgency to that is really the predominant 
thing for me is how do we maintain our preeminence in 
innovation in this country and I'll say specifically for 
Northern California? The answer to that is investing in not 
just in education, but doing it smartly, but doing it in a way 
that is informed given how quickly the workforce is changing 
and the demands on that workforce.
    So Mr. Lovell, if you could start any of the other ----
    Mr. Lovell. No, I would be happy to. You know, ESSA asserts 
that when there is low-performing schools or low-performing 
students something has to happen. It doesn't prescribe what 
happens and there is the balance. The Federal Government 
ensures that we are taking care of our lowest-performing kids 
and leaves it to States and to districts and to schools and to 
my colleagues to my right and my left as to how to do that 
best. Because the Federal Government can't do that, but what 
the Federal Government can do is ensure that we are all playing 
by the same rules. And I also say that we see a lot of really 
effective innovation taking place at the local level and pick 
on California in a positive way in this regard.
    CTE has come up on a number of occasions. And in 
California, through the Linked Learning Initiative there is a 
lot of really great work going on to integrate rigorous 
academics with CTE. And there is an important Federal role to 
play and this committee has played that role by reauthorizing 
the Carl Perkins Career and Technical Education Act. So there 
is a role for everyone to play, but I appreciate you raising 
this need to really acknowledge that the Federal role here is 
important.
    It doesn't displace the local role, but it is two different 
roles. One is to ensure that our lowest-performing kids are 
being supported when they need it, and then the State and local 
role is to actually implement that.
    Mr. DeSaulnier. Thank you, Mr. Lovell.
    Thank you, Madam Chair.
    Chairwoman Foxx. Thank you, Mr. DeSaulnier.
    Mr. Scott, you are recognized for 5 minutes.
    Mr. Scott. Thank you, Madam Chair.
    Ms. Nowicki, did the GAO conduct a compliance review on 
plan components or policy decisions made by States, like Ohio 
or California, or did GAO make any value judgments concerning 
the plan development or did you just make an observation of 
those plans?
    Ms. Nowicki. It was just an observation of those plans, 
sir. We did not make a compliance judgment.
    Mr. Scott. Thank you. And we heard complaints from some 
representatives of civil rights groups that flexibility could 
result in an abuse of, really, equity compliance. Your plan 
didn't comment on equity as I understand it. Did you contact 
representatives of parents, State-level advocates, advocates of 
children with disabilities, or civil rights groups?
    Ms. Nowicki. Generally not for this work, sir. We were 
primarily engaged with national stakeholder groups who were 
working with States.
    Mr. Scott. Thank you.
    Mr. Lovell, the whole point of ESEA and ESSA is to 
eliminate achievement gaps providing equal educational 
opportunities. Can you, you have kind of gone around this, but 
can you show how subgroups so far have addressed equity?
    Mr. Lovell. How States have addressed equity?
    Mr. Scott. Yeah, within terms of ----
    Mr. Lovell. The separate accountability? Thank you for the 
question. So there is a spectrum, right? So you have got some 
States that, as I have said, are looking at are students 
performing at grade level? And if they are, let us do something 
about it. You have some States that will be looking at a whole 
bunch of different indicators. And as I have said, I fear that 
in doing that, what we will be doing is providing the chance 
for low achievement to be masked by higher achievement.
    So if you say--so actually to the conversation that was 
taking place earlier around graduation rates, you can have a 
high graduation rate, which means that kids are actually 
getting a diploma, but they may not be reading or doing math at 
grade level. Right? If you combine those two things together, 
then you are not getting the right read on what is happening in 
the school.
    Another thing that I fear is happening with regard to the 
role of subgroups in these plans is that when States have 
report cards, so if your school gets an A, B, C, D, F, they are 
not adequately incorporating the performance of each group 
within their grades. So you can have a high letter grade, but 
you can have low performance for historically underserved kids.
    Mr. Scott. And if you have a subgroup that is not doing 
well in the school system, what support do members of those 
subgroups get in schools that are otherwise doing well?
    Mr. Lovell. Well, it is really up to the States, the 
districts, and the schools to determine that. The law 
stipulates that they are to receive evidence-based 
intervention, but the schools, the districts, and the States 
will determine what those interventions are.
    Mr. Scott. And, well, how is that a credible plan? Who 
decides whether there is a credible strategy to address 
achievement gaps?
    Mr. Lovell. Well, that is a great question. The template 
that's distributed by the Department of Education and the 
questions around school improvement, there really aren't a lot 
of questions. And so what is really going to be happening is 
fairly unclear.
    Mr. Scott. Why is the 95 percent testing rule important?
    Mr. Lovell. For a few reasons. One, we have to have 
accurate data. And two, we want to make sure that low-
performing kids are not intentionally or unintentionally 
encouraged to not be present on test day.
    Mr. Scott. And what happens if you don't get 95 percent 
tested? What happens to the data?
    Mr. Lovell. The data becomes unreliable.
    Mr. Scott. And, Dr. Wright, you indicated that your 
credentials are nationally recognized. What happened, what is 
wrong with credentials that are not nationally recognized?
    Ms. Wright. There may be some CTE. I assume you are 
referring to the CTE programs. I think some of our local 
businesses, those CTE programs are going to be developed 
specifically for them, so they may not be a national 
credential. Having the CTE endorsement on the diploma is a 
student's option. And so they can either go for the traditional 
diploma or to go for a CTE endorsement on their diploma. That 
is their option, but the local businesses may not have a 
national certification. But they will have a certification that 
will allow them to assume a job in the local business.
    Mr. Scott. But what is the value of the national 
certification?
    Ms. Wright. They can go anywhere in the United States. I 
mean, I think that is the power of having national 
certification is that children are mobile and families are 
mobile. So this will allow them to really look around the 
Nation to see where their certification could earn them, say, 
the most money or where their family wants to move to.
    Mr. Lovell. And if I could run an example of this really 
quickly? There is the National Academy Foundation. Students 
that participate in a NAF academy and they get the NAF track 
certification, they are graduating from high school with their 
diploma. They get the NAF track certification and 13 companies, 
and big companies like AT&T, Cisco, JP Morgan Chase, give those 
students preferential hiring treatment when they are done with 
postsecondary education.
    So there are ways that we can really incentivize 
integration of CTE in academics and make sure that when kids 
are graduating, they are graduating with something that will 
help them down the road.
    Mr. Scott. Thank you, Madam Chair.
    Chairwoman Foxx. Thank you very much, Mr. Scott.
    It is now my turn to ask questions of the panels. Dr. 
Wright, you talk about how Mississippi's State plan is related 
to the State board's strategic plan in Mississippi.
    Ms. Wright. Yes, ma'am.
    Chairwoman Foxx. And we hope that ESSA allows you the 
flexibility to integrate the plan you are developing under ESSA 
with the work the State is already doing. Do you and your 
department, the State board, and other stakeholders around the 
State see that integration as possible and desirable? Or is 
your ESSA work something that is happening separate from the 
other reform work going on in the State?
    Ms. Wright. That is a great question. And we look at it as 
very much integrated. We feel very strongly that our State's 
strategic plan is a strong one and we looked at ESSA as a way 
to strengthen that plan and refine that plan, and give us the 
opportunity to add other components that we may not have had in 
that. But that has been our message right from the very 
beginning.
    Chairwoman Foxx. Dr. Pletnick, could you respond to that 
same question in terms of what is happening in Arizona?
    Ms. Pletnick. As a matter of fact, there was an effort, 
again, to establish goals at our State level. And I had the 
privilege of serving on the long-term goal committee that 
established the goals as part of ESSA. And we were certain to 
align those goals to make certain that what the State had 
developed was also reflected in the State plan when the State 
forward--when the agency submitted those.
    Chairwoman Foxx. Great, thank you.
    Dr. Wright, we have heard criticisms which continue 
throughout the process for what became ESSA that States can't 
be trusted to hold schools accountable and intervene in low-
performing schools. And certainly Mr. Garrett touched on this 
in his comments. You talked about school improvement being an 
important element in the plan that Mississippi is developing. 
Obviously, this is something that States and districts must do 
and should do.
    But ESSA largely puts the actual strategies back in your 
hands. Could you tell us more about how your State and school 
districts are thinking about improving low-performing schools 
under ESSA?
    Ms. Wright. Absolutely. As I mentioned earlier that is our 
goal 6 of our strategic plan around ensuring that our districts 
and our schools are rated C or higher. I feel very strongly 
that everybody needs to be held accountable and that starts 
with me, my team, and I think we owe it to our parents to 
ensure that we are looking out for all children across the 
State regardless of ZIP Code, as someone mentioned earlier.
    We are putting together protocols for our low-performing 
schools to follow. And as I mentioned earlier, we have even got 
a totally different process that we are using about having them 
coming in and justify even their spending. And to ensure that 
they do have evidence-based interventions that they are 
spending their money on and not just interventions that do not 
have any evidence of working. And so that is going to be 
something that we are doing on an ongoing basis.
    I feel very strongly that the children of our State deserve 
nothing less than the best and we have to ensure, as a State, 
that we are monitoring that very closely because not only our 
children depend on it, but our parents depend on it, and they 
trust us to make sure that happens.
    Chairwoman Foxx. Thank you. Another question, Dr. Wright.
    Ms. Wright. Sure.
    Chairwoman Foxx. Dr. Pletnick has talked about how she 
applauds the planning approach in Arizona even though she 
doesn't agree with everything in the plan. And you have talked 
about the stakeholders you have engaged with and how your State 
plan reflects the view of these stakeholders. And by the way, 
it is an impressive process that you have talked about.
    I am sure that not every stakeholder, though, agrees with 
everything that is in the draft plan so far. So how have you 
engaged with critics to at least ensure everyone has the 
opportunity to be heard?
    Ms. Wright. I think it is really important that everybody's 
voice is heard. I am a big believer in advocacy and I think 
that anybody that is in front of you that is advocating or 
advocating for a reason, and we have been very forthright about 
what we can and cannot do.
    We went through a series of three different assessments in 
three different years. And that kind of drove my teachers and 
superintendents a little crazy. So I said we are going to hold 
tight on an accountability system at least for three straight 
years under the same assessment so that they did not feel I was 
continuing to change the target.
    So when we have got stakeholders coming in and saying, 
well, we would love to have a school climate survey embedded 
into our accountability system, I have said if you can just 
press pause, we are putting a taskforce together now at the end 
of our third year to take a look at our entire accountability 
system and say are there any unintended consequences or are 
there other things we can add.
    So we have acknowledged what they have wanted, but we have 
also tried to provide a reason why we either can or cannot 
include that in our plan.
    Chairwoman Foxx. Great. Thank you very much for that. I 
want to thank all of our witnesses for taking time to testify 
before the committee today and even though most of our members 
have left, I really appreciate members on both sides coming and 
asking good questions, sometimes pontificating, but 
participating in what is going on as everybody has indicated, 
we have an important subject here.
    I would now like to recognize Ranking Member Scott for his 
closing remarks.
    Mr. Scott. Thank you, Madam Chair. Madam Chair, we have 
heard the necessity to get the Department of Education before 
us to respond to some of the concerns about inconsistencies in 
terms of responding to the State plans and other priorities by 
the Department, particularly in terms of the funding 
priorities.
    We have heard the real necessity for having many of the 
programs within ESSA actually funded because if we are asking 
them to get the job done, we have identified technical 
assistance to teachers, afterschool programs, and other things 
that can be very helpful. And if we don't fund them, it just 
complicates their life.
    The Elementary and Secondary Education Act passed in 1965 
was designed as a civil rights law to guarantee equal 
educational opportunities. We have gone through many 
iterations. The last, of course, is ESSA. It has two major 
requirements. One is a requirement that localities assess to 
ascertain whether or not there are achievement gaps and where 
they find achievement gaps, having a meaningful strategy to 
eliminate those.
    Dr. Wright has indicated what a meaningful strategy may 
look like and I think it is significant that it wasn't just one 
program and reaction. It is a long-term strategy that starts 
with early childhood education and following the students to 
ascertain whether or not the strategy is working and making 
sure that you actually address the achievement gap.
    There is flexibility in how to assess and in the strategy 
to eliminate the achievement gaps, but there is no real 
flexibility on the requirement that the assessment be done and 
that the accountability, doing something about it, is credible. 
And if a State fails to adequately explain how they are going 
to assess for achievement gaps or fails to outline a credible 
strategy to address those achievement gaps, it is the 
responsibility of the Department of Education to intervene.
    Madam Chair, we have letters from several organizations 
that I would like to submit for the record. They are letters 
from advocacy organizations and stakeholders about their 
engagement in ESSA approval so far. The letters are from the 
Advocacy Institute, the Council of Parent Attorneys and 
Advocates, NAACP Legal Defense and Education Fund, and the 
National Down Syndrome Congress.
    Chairwoman Foxx. Without objection.
    Mr. Scott. I yield back.
    Chairwoman Foxx. Thank you very much, Mr. Scott.
    I have found this to be very, very interesting hearing 
today. And I think that a lot of what it boils down to is a 
subject we deal with a lot in this committee and that I talk 
about a fair amount, and that is the role of the Federal 
Government in education.
    I think it was very important that both Dr. Wright, Dr. 
Pletnick brought up the fact that ESSA is not your entire 
educational program in your States. I think that many times 
people tend to think that what the Federal Government is 
providing in terms of funding or what we are providing in terms 
of law is it, that is all you are doing.
    And I think we have done a disservice in many cases to the 
American people in many things that the Federal Government has 
done to make it appear as though the Federal Government is the 
savior. We have a big program and all of a sudden everybody 
thinks it is the answer.
    I think my own experiences as a member of a board of 
education tell me a lot about what Mr. Garrett was talking 
about. My experiences since then in visiting schools all over 
the country, we have a lot of wonderful teachers, principals, 
superintendents, custodians who want to provide a great 
educational experience for the students in their schools.
    And I think in many cases the Federal Government has a very 
limited role in that and that for us to always look to the 
Federal Government to solve every problem that exists out there 
is a mistake. And we have to understand the limitations, I 
think, that we have.
    I think ESSA was a big step forward in giving the 
flexibility that the locals and the States need to be able to 
provide that education. My colleague said what we should be 
about is providing equal educational opportunities and I 
certainly believe that.
    I believe that education is the answer to so many things 
that so many challenges facing people in this country from 
getting out of poverty, to finding meaningful work, to having a 
successful life. So I want those opportunities.
    But I think too many times what we say to the American 
people is that we can have equality in outcomes. And having 
taught for 15 years I know that just isn't going to happen.
    I was shocked. When I taught I said to my students 
everybody in here can make an A and I really meant that. And I 
gave unlimited opportunities to students to do that. But I had 
a Bell-shaped curve every semester and I was truly shocked by 
that because I didn't believe--I thought everybody would take 
every opportunity to make the best grade that he or she could 
make and it didn't happen.
    So I believe in equal educational opportunities, but I 
don't think we are going to have equal results. And I think we 
have to temper what we do, but we have to trust people at the 
local level. And I appreciate very much those people who are 
out there every day teaching, committing themselves to helping 
students. And for those of you who are administrators, bless 
you for what you do. Particularly bless you if you listen to 
your teachers, you listen to your parents, and you listen to 
the stakeholders.
    The other thing that we hear a lot about, and I am really 
glad Mr. DeSaulnier brought this up because it is true again on 
both sides of the aisle, in most cases we think of education as 
preparation for the workforce. We don't have many people who 
can go through an educational system and then not do anything 
to provide for themselves. And we are all hearing about this. 
And so I think emphasis on what we are doing out there, whether 
people end at the secondary level and don't go on for any other 
formal education, they are going to get educated whether it is 
a formal process is really important.
    But I think we are moving in the right direction with ESSA 
and I am, again, particularly glad to hear our two 
administrative people talk about how this is one piece of the 
answer, not all of it because I think we have to understand the 
proper role of the Federal Government.
    So thank you all very much. There being no further 
business, the committee stands adjourned.
    [Additional submission by Mr. Lovell follows:]
    
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    
    [Additional submissions by Mr. Scott follow:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    [Whereupon, at 12:32 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
